<html>
<title> - POPULAR UPRISING IN THE MIDDLE EAST: THE IMPLICATIONS FOR U.S. POLICY</title>
<body><pre>[Senate Hearing 112-56]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 112-56
 
                  POPULAR UPRISING IN THE MIDDLE EAST: 
                    THE IMPLICATIONS FOR U.S. POLICY

=======================================================================



                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations


       Available via the World Wide Web: http://www.fdsys.gpo.gov




                  U.S. GOVERNMENT PRINTING OFFICE
67-799                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Burns, Hon. William J., Under Secretary for Political Affairs, 
  U.S. Department of State, Washington, DC.......................     6
    Prepared statement...........................................     9
    Responses to questions submitted for the record by:
        Senator Robert Menendez..................................    37
        Senator Johnny Isakson...................................    38
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4

                                 (iii)




 POPULAR UPRISING IN THE MIDDLE EAST: THE IMPLICATIONS FOR U.S. POLICY

                              ----------                              


                        THURSDAY, MARCH 17, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Cardin, Casey, Webb, 
Lugar, Corker, and Rubio.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order. Good morning, 
everybody. Happy St. Patrick's Day to all and welcome to this 
hearing on the Mideast--on events within the Mideast.
    And I am particularly pleased, the committee is 
particularly pleased to welcome here one of our most able and 
distinguished diplomats. And he will be discussing what is 
obviously one of the most pressing regions of concern and one 
of the areas of greatest consequence to the foreign policy of 
the United States at this particular moment in time.
    Under Secretary Bill Burns has served in the Foreign 
Service for nearly 30 years, including as Ambassador to Jordan, 
Russia, and as Assistant Secretary for Near Eastern Affairs. 
And in the years that I have served on the committee, I am sure 
Senator Lugar shares this and Senator Corker, I think he is one 
of our more capable diplomats, Foreign Service professionals 
that we have had the occasion to be able to work with.
    I thank you, Mr. Secretary, for making time to be with us 
today when we know that you are enormously pressed and we look 
forward to your filling us in on the inspiring and troubling 
events that are unfolding in the Arab world.
    From the experiences that you have had in Jordan and 
elsewhere in the Near East as Secretary, clearly you have as 
strong a perspective on the changes that are sweeping across 
the Middle East as anybody, and we are fortunate to have your 
experience at this historic moment.
    In 2 short months we have seen stirring triumphs in Tunis 
and Tahrir Square, unprecedented protests in Sana and Manama, 
brutal crackdowns in Tripoli and obviously concerning events 
unfolding with respect to Benghazi now. And these uprisings 
clearly constitute one of the most remarkable, momentous 
developments of our time. They also present a huge challenge 
for all of us, for the people of the region and for America's 
relationship with the people in the region.
    So how we respond, as I said yesterday in comments I made 
at the Carnegie Endowment, how we respond is really going to 
shape our strategic position with respect to the Middle East as 
well as how people in the Middle East and around the world, and 
particularly Muslims, are going to see us. And I think it will 
shape that view for years to come.
    Clearly the remarkable transition that took place in Egypt, 
the events of Tahrir Square, that transformation was a victory, 
above all, for the people of Egypt. They did it. And they did 
it in a most amazing way. But, it was also a victory for 
democrats, small ``d'' obviously, democrats around the world, 
because it showed that political change, even change of that 
level of consequence, can be brought about peacefully.
    If this now can be translated, the liberation that has 
taken place in Egypt can be translated, and Tunisia, into 
lasting democracy, then the entire new Arab Awakening is going 
to carry a vital message, and that is that ordinary people can 
take their future into their own hands and have the ability to 
be able to command it, have a huge impact and determine for 
themselves how they are going to be governed.
    I want to also underscore, and again, I pointed to this 
yesterday but I want to repeat it, because I think it is an 
important concept, that the developments of Egypt and Tunisia 
represent a huge blow against extremism. A successful democracy 
in Egypt will demonstrate that al-Qaeda's belief that change 
requires the cowardly violence of terror is wrong and it will 
weaken the position of states like Iran that repress their own 
people and use terrorist organizations to advance their 
interests.
    Also, just as we did in Eastern Europe immediately after 
the fall of the Berlin Wall, I think we have the ability to 
play a hugely constructive role in what happens and how events 
unfold in the Middle East and we can affirm the values of 
democracy as well as serve the larger strategic interests of 
our friends and allies, and of the people of these countries as 
well as ourselves by seizing this moment and recognizing the 
opportunity that it presents. And that is why I am working with 
Senator McCain and Senator Lieberman on legislation to support 
these new and fledgling democracies in that region.
    I call people's attention to the SEED Act. In 1989 it was 
signed by President George H.W. Bush, and it was legislation 
that was aimed at helping governments reform out of the 
autocracies that they once were. Well similarly, we want to do 
that. We want to help governments reform their security 
sectors, build transparency, strengthen the rule of law and 
help their leaders incorporate the aspirations of their people 
into the day-to-day work and life of those countries.
    Ultimately we want to support the transition to democratic 
rule in Egypt and Tunisia, as well as these other countries 
that are still struggling, and we want to encourage movement 
toward democratic reform in the Middle East as a whole.
    Our approach to the Middle East I think--I think this may 
be stating the obvious, but the obvious doesn't always get 
translated into reality around here and it needs to. Our 
policies toward the Middle East are going to have to change. 
For decades we were driven by our--purely, mostly by our 
addiction to oil, foreign oil. And democracy and human rights 
were frankly overshadowed to some degree by the political 
realities created by that economic and addictive reality. And 
too often over the past decade we saw regimes in the region 
chiefly as tools in the fight against terrorism, while looking 
away from abuses that we knew were unconscionable. Yes, we 
would raise them privately, myself included, but the result was 
that we had relationships that focused mostly on leaders rather 
than people. That is part of the price we pay, folks, for our 
energy paradigm that we are locked into.
    I have said for years that we would liberate American 
foreign policy if we could liberate ourselves from that 
dependency. And so now we cannot afford to continue to simply 
see the Middle East in the context of 9/11, we have to see it 
in the context of 2011 and of this changing reality.
    As the people of the region demand reform our approach to 
the region has to embody the core values of our country. And at 
the most basic level that means that we have to be consistent 
in encouraging governments everywhere to respond to the hopes 
and needs and rights of their citizens. We need to emphasize 
the programs that will strengthen our engagement with people, 
which is one of the core objectives of the legislation that 
we're working on.
    So, does that mean you have a cookie-cutter approach to 
every country? The answer is, ``No''; every country is 
different. Egypt isn't Jordan and Jordan isn't Libya and nor 
are any of them Bahrain or Saudi Arabia. Each has its own 
culture, its own sectarian realities. But we have to push back, 
in all cases, against a consolidation of power that has bred 
economic stagnation, corruption, popular dissatisfaction and 
governments that are really, in many--in some cases, quite 
divorced from the needs, concerns, and hopes of their people. 
We need to encourage the establishment of institutions that 
translate the will of the people into action and that promote 
transparency and accountability.
    Now, obviously the story coming out of the Arab world today 
is not all good news. So we will be especially interested in 
the Secretary's views on the troubling events unfolding in 
Libya and Bahrain. In Libya, after the brutal attacks on his 
own people, by Colonel Qaddafi, has been completely discredited 
as a leader by every other--certainly by most of the friends 
and allies of the West as well as Arab countries--the Arab 
communities having spoken out in a rather remarkable way in the 
last weeks.
    The international community cannot simply watch from the 
sidelines as the Libyan people's quest for democratic reform is 
met with violence. The Arab League's call for a U.N. no-fly 
zone is an unprecedented signal, a rather remarkable 
transformation and statement that the old rules of impunity for 
autocratic leaders don't stand.
    But time is running out for the Libyan people. The world 
needs to respond immediately, the United Nations Security 
Council should act now, today, to pass a resolution that the 
United States has shown real leadership in helping to craft, 
that would provide the range of options necessary to avert a 
humanitarian disaster. And whatever the final outcome, Qaddafi 
has no legitimacy to govern, will have no legitimacy to govern, 
he will govern, if he does, by force and force alone, and the 
will of the Libyan people, in my judgment, will ultimately 
prevail.
    In Bahrain, soldiers backed by helicopters and tanks have 
cleared Pearl Square. But it is clear, violence will not solve 
the underlying problems of Bahrain, it will in fact most likely 
make them worse and it risks a regional escalation. So we urge 
the parties to engage in the national dialogue that is so 
critical to chart a path forward of real reform.
    Under Secretary Burns, I know that you have given an awful 
lot of thought, and are now, to each of these issues over many 
years. So we look forward to hearing from how you think the 
situation in the region is developing and how the United States 
ought to respond to it.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. I join the chairman in welcoming Secretary 
Burns. I am very pleased that the Foreign Relations Committee 
is engaged in this timely meeting to discuss the challenges 
stemming from the upheaval that has swept the Middle East over 
the past 3 months. There has been dramatic change, but we are 
only at the very beginning of a long process.
    How these movements develop and coalesce into organized 
political parties and how the governments of the region respond 
to their citizens' demands, will impact the United States 
interests for decades. There is a long-term opportunity for a 
more peaceful, stable, and prosperous Middle East as a result 
of this popular movement, but we have been encouraging more 
representative and tolerant governance throughout the region 
for many years. As Americans, we should honor those in the 
region who are speaking out in defense of values that we hold 
dear.
    At the same time we should acknowledge that the movements 
are not about us. Our response needs to reflect this reality, 
and should encompass a broader public debate about the goals 
and limits of the United States role in the Middle East, 
especially as it pertains to potential military intervention.
    During the last 2 weeks, I have expressed my deep concern 
that discussions of the United States policy options in the 
Middle East have focused on a no-fly zone or other military 
intervention in Libya. Clearly the United States should be 
engaged with allies on how to oppose the Qaddafi regime and 
support the aspirations of the Libyan people. But given the 
costs of a no-fly zone, the risks that our involvement would 
escalate, the uncertain reception in the Arab street of any 
American intervention in an Arab country, the potential for 
civilian deaths, the unpredictability of the endgame in a civil 
war, the strains on our military, and other factors, I am 
doubtful that United States interests would be served by 
imposing a no-fly zone over Libya.
    With roughly 145,000 American troops still in Iraq and 
Afghanistan and with a budget that, according to the 
President's own proposal, will carry a deficit of approximately 
$1.5 trillion this year, we have to recognize that war spending 
is especially difficult to control. In this broad context, if 
the Obama administration decides to impose a no-fly zone or 
take other significant military action in Libya, I believe it 
should first seek a congressional debate on a declaration of 
war under article I, section 8 of the Constitution.
    I also have made the point that if American forces go to 
war in Libya, we should ask Arab League governments and other 
governments advocating for American military action to pledge 
resources necessary to pay for it. This is not unprecedented. 
More than $50 billion in foreign contributions were received to 
offset United States costs in association with the first gulf 
war in 1991.
    Beyond the civil war in Libya, it is important for our 
country to focus on the transitions in Egypt and Tunisia, 
security in the Persian Gulf, and the potential impact the 
instability is having on our efforts to counter terrorist 
threats, particularly emanating from Yemen.
    I am concerned that there has not been sufficient 
discussion and debate about the constitutional reforms needed 
in Egypt, and that reports indicate only the former ruling 
party and the Muslim Brotherhood have come out in favor of the 
proposed referendum, to be held in less than 48 hours. I 
appreciate that the administration has encouraged the Egyptian 
Government to seek election help from groups like the 
International Foundation for Electoral Systems. Elections are 
difficult to organize. They require planning and technical 
expertise. From my own experience monitoring democratic 
transitions, as far back as the Philippine People Power 
Movement in the 1980s, I can attest to the importance of 
getting elections right. Egyptians will make their own 
decisions, but I hope we are doing everything possible to give 
them the tools to be successful.
    Similarly, it is important for us to support Tunisia's 
transition. We must not forget that the wave of popular 
movements was sparked by a Tunisian example, and the 
establishment of a stable, democratic Tunisia would similarly 
reinforce the power of peaceful protest. In the midst of their 
own political challenges, the Tunisians have made remarkable 
contributions to the safety and well-being of refugees fleeing 
the violence in Libya, and they deserve our support.
    Developments this week in Bahrain are a cause of concern. 
The deployment of Saudi forces to Bahrain is reportedly 
designed to secure vital infrastructure. What are the prospects 
for meaningful dialogue between the government and the 
opposition? Not only will events in Bahrain affect the wider 
Persian Gulf region, but that country hosts a critical United 
States naval presence, vital to ensuring freedom of navigation.
    We must remain vigilant in the fight against terrorists who 
seek to kill Americans. The most recent attempted terrorist 
attacks on United States soil have come not from Pakistan or 
Afghanistan, but from Yemen. How is the administration reacting 
to continuing instability in Yemen? What are the implications 
for our fight against al-Qaeda in the Arabian Peninsula? I will 
appreciate, as will all of our members this morning, the 
insights of Secretary Burns on these very difficult issues and 
we look forward to our discussion.
    I thank you.

    STATEMENT OF HON. WILLIAM J. BURNS, UNDER SECRETARY FOR 
     POLITICAL AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Burns. Thank you very much.
    Mr. Chairman, Senator Lugar, members of the committee, good 
morning and thank you very much for this opportunity to appear 
before you again.
    Less than 3 months ago a desperate Tunisian street vendor, 
tired of too many indignities and too many lost hopes, set fire 
to himself and sparked a revolution still burning across an 
entire region. That single act, at once tragic and noble, has 
brought the Middle East to a moment of profound transformation 
as consequential in its own way as 1989 was for Europe and 
Eurasia. It is a moment of enormous promise for people and 
societies long denied freedom and dignity and opportunity. It 
is a moment of great possibility for American policy. A moment 
when the peaceful, homegrown, nonideological movement surging 
out of Tahrir Square offers a powerful repudiation of al-
Qaeda's false narrative that violence and extremism are the 
only ways to affect change.
    But it is also a moment of considerable risk, because there 
is nothing automatic or foreordained about the success of such 
transitions. Helping to get them right is as important a 
challenge for American foreign policy as any we have faced 
since the end of the cold war.
    Mr. Chairman, it seems to me that the starting point for 
sensible policy is to understand clearly what is at play and 
what is at stake in the Middle East today. The revolutions that 
began in Tunis and in Cairo are not about us, they are about 
the brave, proud, and determined people of Arab societies 
intent upon better governance and more economic opportunities, 
intent upon erasing the disconnect between the rulers and the 
ruled that for so long had been so stifling for so many. And 
they are about the universal values that the President spoke 
about 2 years ago in Cairo, the right of peaceful assembly, 
freedom of speech, and the right to determine one's own 
destiny.
    The most intense impression I had 3 weeks ago, after 
visiting Tahrir Square and meeting youth leaders, was the 
remarkable sense of public empowerment. It is fueled by a 
communications revolution that stripped governments of their 
old monopoly on the flow of information, made people more aware 
of what others had in other societies that they didn't and 
helped them mobilize without central leadership or conventional 
political organizations.
    If the indigenous energy and drive of the new Arab 
Awakening is its most potent ingredient, it is also a vivid 
reminder that stability is not a static phenomenon. Political 
systems and leadership that fail to respond to the legitimate 
aspirations of their people become more brittle, not more 
stable. Popular pressures to realize universal values will take 
different shapes and different societies, but no society is 
immune from them. Political systems are a little like bicycles, 
unless they are peddled forward they tend to fall over.
    The long held conceit of many Arab leaders was that there 
were really only two political choices, the autocrats you know 
or the Islamic extremists you fear. That proposed a convenient 
rationale for blocking real political outlets or broaden 
participation and it ultimately produced the spontaneous 
combustion of Tahrir Square.
    The inconvenient truth is that many, if not most of us 
involved in American policy in the Middle East in recent 
decades have sometimes fallen prey to that same conceit. We 
recognize the tinder that was accumulating in the region, the 
combustible mix of closed systems and corruption and alienation 
and indignity, documented so eloquently in the Arab Human 
Development reports. We tried to drive home that concern to 
leaderships in the region, but we didn't always try hard 
enough. So it is good to apply a little humility as we enter 
this new era unfolding before us.
    The honest answer, also, is that as much as it is in our 
long-term interest to support the emergence of more transparent 
and more responsive governments, who will ultimately make 
stronger and more stable partners, the short term is likely to 
be pretty complicated and unsettling. As in other democratic 
transitions in other parts of the world, there is a danger of 
authoritarian retrenchment, especially if economic stagnation 
persists and newly elected leaders don't produce practical 
improvements in people's daily lives.
    Successful transitions are about a lot more than just 
elections. Institutions have to be built, too, with checks and 
balances and an independent media to hold people accountable. 
There will be plenty of vulnerabilities to exploit and no 
shortage of predatory extremists ready to take advantage. And 
there will be plenty of hard trade-offs for American 
policymakers with popularly elected governments sometimes 
taking sharper issue with American policies than their 
autocratic predecessors did and elections sometimes producing 
uncomfortable results.
    None of that argues for pessimism, in my view, although it 
is a fact that the Middle East is a place where pessimists 
rarely lack for either company or validation. I actually see 
considerable cause for optimism in what is underway in the 
region. I am not naive, and nearly three decades of experience 
in the Middle East have stripped me of most of my illusions, 
but there is no mistaking the very real opportunities before us 
if we employ a thoughtful, carefully integrated strategy.
    The key to a successful strategy, it seems to me, is to 
make common cause with people and leaders in the region, as 
well as our partners outside it, in pursuit of a simple, 
positive agenda. We should contrast that with the fundamentally 
negative agenda of violent extremists who are much better at 
describing what they are against than what they are for, at 
describing what they want to tear down, rather than what they 
want to build up.
    Beyond our obvious interests in developing greater energy 
independence and leading by the power of our own democratic 
example, there are at least four main elements for such a 
positive agenda.
    First is support for peaceful democratic change. In 
countries that are taking decisive steps away from old systems 
and toward democracy, we have a deep stake in stable 
transitions. Secretary Clinton emphasized our commitment to 
Egypt's success, in Cairo earlier this week, underscoring the 
hugely important demonstration affect of Egypt's experience for 
the rest of the region. The Secretary stressed that same 
reality in Tunisia today, noting that no one will ever forget 
where this wave of change began.
    In countries where protests have emerge, but change is 
uncertain, such as Bahrain, we will continue to urge serious 
political reform as well as urgent, peaceful dialogue between 
governments and opposition leaders. In countries working to 
stay ahead of the wave of popular protests, such as Jordan and 
Morocco, we will continue to emphasize the importance of taking 
reform seriously now as a way of creating positive avenues of 
citizen engagement and avoiding sharp conflicts later on. And 
in the sad and violent case of Libya, we are working hard to 
maximize international pressure for Qaddafi's departure and to 
support the courageous Libyans who have risen up to regain 
their rights.
    Following the Arab League's important and unprecedented 
call for urgent measures to protect civilians in Libya and 
establish a no-fly zone, we are pressing for a new U.N. 
Security Council resolution to authorize a range of further 
actions against the Qaddafi regime.
    A second element, closely connected to the first, is strong 
support for economic modernization. In the short run, that 
means helping Egypt and Tunisia, for example, to navigate past 
significant difficulties created by political turmoil and the 
temporary collapse of tourism. But that also means thinking 
boldly and ambitiously about how we can promote genuine long-
term modernization. We strongly support the Enterprise Fund 
that you, Mr. Chairman, and Senators McCain and Lieberman have 
proposed. Secretary Clinton just announced that the Overseas 
Private Investment Corporation, OPIC, will provide up to $2 
billion to stimulate private sector investments in the Middle 
East and North Africa.
    It is also crucially important to consider trade 
liberalization initiatives for key Arab States in transition, 
ideally in cooperation with the European Union. In the process 
we can help encourage intraregional trade and integration in a 
region in which both are in short supply. We can help produce 
private sector jobs desperately needed to keep pace with 
demography and expectations. And we can help spread the 
benefits and opportunities of economic growth across Arab 
societies rather than just to a narrow circle at the top.
    The success of political transitions will require strong, 
practical economic results and creating a sense of economic 
hope. Much of that obviously depends on Arab countries 
themselves who need to put themselves in a better position to 
compete in a very unsentimental global marketplace, but it is 
deeply and urgently in our self interest to do all that we can 
to help.
    The third element of a positive American agenda for the 
Middle East is renewed pursuit of comprehensive Arab/Israeli 
peace. The status quo between Arabs and Israelis is no more 
sustainable than the sclerotic political systems that have 
crumbled in recent months. Neither Israel's future as a Jewish 
democratic state, nor the legitimate aspirations of 
Palestinians can be secured without a negotiated two-state 
solution. While it is a truism that only the parties themselves 
can make the hard choices necessary for peace, there is also no 
substitute for continued, active American leadership.
    A fourth element is our own huge and enduring stake in 
regional security, in strengthening ties to the GCC states, in 
fighting terrorism and preventing Iran from developing nuclear 
weapons and setting off a catastrophic regional arms race, in 
not losing sight of Iraq's own critical democratic transition 
and reintegration into the Arab world. We have to remain clear-
eyed and resolute about the threat that Iran's behavior poses 
across a number of areas and equally straightforward in our 
support for the aspirations of Iranian citizens for freedom and 
dignity.
    Beneath Tehran's bluster the truth is that nowhere in the 
region is the disconnect between rulers and ruled any greater 
than it is in Iran. It is the height of hypocrisy for Iran's 
leaders to profess their enthusiasm for democratic changes in 
the Arab world while systematically denying them to their own 
people.
    Mr. Chairman, this is one of those moments that come along 
only very rarely in the course of human events. It is full of 
historic opportunities and some very large pitfalls for people 
in the Middle East and for the United States. It is a moment 
which demands our attention and our energy and as much 
creativity and initiative as we and our partners around the 
world can generate.
    I look forward very much to working closely with you and 
Senator Lugar and the members of the committee in the weeks and 
months ahead.
    Thank you, once again, for the opportunity to appear before 
you today.
    [The prepared statement of Mr. Burns follows:]

         Prepared Statement of Under Secretary William J. Burns

    Chairman Kerry, Senator Lugar, members of the committee, thank you 
for the opportunity to appear before you again.
    Less than 3 months ago, a desperate Tunisian street vendor, tired 
of too many indignities and too many lost hopes, set fire to himself 
and sparked a revolution still burning across an entire region. That 
single tragic act, has brought the Middle East to a moment of profound 
transformation, as consequential in its own way as 1989 was for Europe 
and Eurasia.
    It is a moment of enormous promise for people and societies long 
denied full freedom and dignity and opportunity. It is a moment of 
great possibility for American policy, as well as a moment when the 
peaceful, homegrown, nonideological movement surging out of Tahrir 
Square offers a powerful repudiation of al-Qaeda's false narrative that 
violence and extremism are the only ways to effect change. The result 
of all these reform movements could be greater peace, democracy, and 
prosperity in the region, which would advance all of our interests. But 
is also a moment of considerable risk, because there is nothing 
automatic or foreordained about the success of such transitions. 
Helping these countries' reformers to achieve their goals is as 
important a challenge for American foreign policy as any we have faced 
since the end of the cold war.
    While the spark that launched the Tunisian revolution was a 
spontaneous act born of one individual's feelings of frustration and 
disenfranchisement, the underlying regional demographic, economic, 
political, and environmental challenges he faced remain a longstanding 
concern of ours. The Middle East faces the profound problem of a 
massive youth bulge coming of age in an environment without economic or 
political opportunity. Youth unemployment in some cases is greater than 
30 percent. Many college-educated urban youth are unable to find jobs. 
Widespread corruption and lack of free speech fuel a sense of 
individual disenfranchisement, a sense shared across the region. The 
revolutions that began in Tunis and Cairo are about the brave, proud, 
and determined people of Arab societies, intent upon better governance 
and more economic opportunities, intent upon erasing the disconnect 
between the rulers and the ruled that for so long has been so stifling 
for so many. And they're about the universal values that the President 
spoke about 2 years ago in Cairo--the right of peaceful assembly, 
freedom of speech, and the right to determine one's own destiny.
    If the indigenous energy and drive of the new Arab awakening is its 
most potent ingredient, it is also a vivid reminder that stability is 
not a static phenomenon. Political systems and leaderships that fail to 
respond to the legitimate aspirations of their people become more 
brittle, not more stable. Popular pressures to realize universal values 
will take different shapes in different societies, but no society is 
immune from them. As Secretary Clinton said, ``the challenge is to help 
our partners take systematic steps to usher in a better future where 
people's voices are heard, their rights respected, and their 
aspirations met. This is not simply a matter of idealism. It is a 
strategic necessity.''
    The long-held conceit of many Arab leaders was that there were 
really only two political choices--the autocrats you know or the 
Islamic extremists you fear. That provided a convenient rationale for 
blocking real political outlets or broadened participation, and it 
ultimately produced the spontaneous protests in Tahrir Square and 
elsewhere throughout the region. We have long recognized the tinder 
that was accumulating in the region, the combustible mix of closed 
systems and corruption and alienation and indignity documented so 
eloquently in the Arab Human Development Reports. We tried to drive 
home that concern to leaderships in the region, with President Obama 
underscoring in his June 2009 Cairo speech that nations that protect 
universal rights are ultimately more stable, successful and secure. 
Secretary Clinton left no room for ambiguity when she warned regional 
leaders in Doha earlier this year that they needed to embrace reform or 
see the sands shift underneath their feet. At the same time, successive 
administrations have sought cooperation on crucial shared priorities, 
such as combating terrorism, curbing Iran's nuclear ambitions, 
promoting Middle East peace, and securing stable energy supplies.
    As much as it is in our long-term interest to support the emergence 
of more transparent and more responsive governments, who will 
ultimately make stronger and more stable partners, the short term is 
likely to be complicated and maybe even unsettling. As in other 
democratic transitions in other parts of the world, there is a danger 
of authoritarian retrenchment, especially if economic stagnation 
persists and newly elected leaders do not produce immediate practical 
improvements in people's daily lives. Successful transitions are about 
a lot more than just elections; institutions have to be built too, 
supportive policies, effective checks and balances, and an independent 
media to hold governments accountable.
    There will be plenty of vulnerabilities, and no shortage of 
predatory extremists ready to exploit them. And there will be plenty of 
hard tradeoffs for American policymakers, with popularly elected 
governments sometimes taking sharper issue with American policies than 
their autocratic predecessors did, and elections sometimes producing 
uncomfortable results.
    Secretary Clinton just returned from Egypt and Tunisia; in both 
countries, she listened to the concerns and goals of civil society, 
political activists, and government officials, and emphasized the 
enormous importance we attach to their success in building new 
democratic and durable political structures. In responding to the 
changes in the region, we are guided by clear core principles. We 
support the universal right to freedom of expression, association, and 
speech, as well as to be free from fear of harassment, reprisal, 
intimidation, and discrimination. We oppose violence as a tool for 
political coercion. We support the right of each country to determine 
its own path, recognizing the unique context of each situation. We 
believe political transitions should be deliberate, inclusive, and 
transparent, with a broad and inclusive dialogue that engages women, 
minorities, and people from all religious, economic, and social 
backgrounds.
    The key to a successful U.S. strategy is to make common cause with 
people and leaders in the region--as well as our partners outside it--
in pursuit of a simple, positive agenda. U.S. assistance and leadership 
has a crucial part to play in meeting the crescendo of challenges in 
the Middle East and North Africa. Whether building international 
support for the swift and unanimous imposition of strong sanctions on 
Colonel Qadhafi and those who still stand by him--imposing a travel 
ban, an assets freeze, and an arms embargo--or securing the 
unprecedented recommendation of the Human Rights Council for suspending 
Libya's membership from the Council as well as a consensus decision of 
the U.N. General Assembly to suspend Libya, which is the first time any 
country has been suspended from the Council--U.S. interests have been 
enhanced in multilateral channels.
    The first element of our approach to the Middle East is support for 
peaceful democratic change, reflecting the very different situations 
that are unfolding. In countries that are taking decisive steps away 
from old systems and toward democracy, such as Egypt and Tunisia, we 
have a deep stake in stable transitions. As the traditional bellwether 
for the Middle East--politically, economically, and culturally--Egypt's 
success is vitally important to the region and to us. We will continue 
to support civil society voices urging the immediate lifting of the 
Emergency Law and encouraging real oversight of the new National 
Security Agency, in the wake of Egypt's very positive decision to 
dissolve the discredited State Security Investigations Agency. We 
support a thoughtful sequencing of a constitutional referendum and 
elections that will provide the time and space necessary to allow 
political parties to organize, build support, and campaign--which we 
also see as critical steps in helping the Egyptian people truly have a 
choice when they turn out to vote. We acknowledge the Egyptian 
military's valuable role in overseeing the transition process and look 
forward to continuing three decades of cooperation with that 
institution. We will hold its leaders to their commitment to genuine 
reform in Egypt. The same holds true in Tunisia, a middle-income 
country with an educated population and tradition of tolerance, where 
we can provide important support in strengthening civil society, the 
media, and the understanding of a sound framework for elections.
    In countries such as Bahrain and Yemen, where we are witnessing 
escalating protests but change is uncertain, we will continue to press 
vigorously for serious political reform as well as productive dialogue 
between governments and opposition leaders. This is particularly 
critical in Bahrain, where there can be no military solution to the 
lack of trust across Bahrain's sectarian divide. This is not just a 
simple matter of restoring law and order, but addressing real political 
grievances. Aggravating sectarian divides will only lead to decreased 
security over the long term. A focused dialogue that produces 
meaningful constitutional reforms addressing the legitimate grievances 
of the Shia population would be a defeat for those, including Iran and 
al-Qaeda, seeking to co-opt regional sectarian strife for their own 
benefit. The stakes are high. In Yemen, terrorist violence from al-
Qaeda in the Arabian Peninsula threatens the security and well-being of 
the Yemeni people, the broader Arabian Peninsula, the United States 
homeland, our friends and allies. Declining water and petroleum 
resources, a fractured polity that few have confidence in, an 
underdeveloped civil society, and institutions too weak to mediate 
competing tribal and regional demands make combating terrorism and 
promoting sustainable development that much more difficult. The 
international community must promote dialogue and reforms that will set 
the stage for a Presidential election in 2013, in which President Saleh 
has pledged not to participate.
    In countries working to stay ahead of the wave of popular protests, 
such as Jordan and Morocco, we will emphasize the importance of taking 
reform seriously now as a way of creating positive avenues of citizen 
engagement and avoiding sharp conflicts later on. As always, timely 
reform is the best possible antidote to subsequent upheaval. Both King 
Abdallah and King Mohammed have announced significant reform 
initiatives. In Morocco, these include a popularly elected Prime 
Minister with greatly enhanced powers; a fully independent judiciary; 
strengthened Parliament and civil society; greater public 
accountability and other measures to combat corruption; more 
institutionalized protections for human rights and civil liberties; 
significant transfers of power from appointed administrators to elected 
municipal and regional officials; and institutionalized protections for 
Amazigh (Berber) rights. In Jordan, the King has called for new laws 
that will yield a more representative Parliament and facilitate the 
formation of new political parties. Implementing these reforms in a 
credible and transparent manner will build confidence and credibility 
in both governments as agents of responsible change.
    And in the sad and violent case of Libya, we are working hard to 
maximize international pressure for Qadhafi's departure, and to support 
the courageous Libyans who have risen up to regain their rights. We 
also worked tirelessly for the adoption of U.N. Security Council 
Resolution 1970, which required the freezing of assets of Qadhafi and 
several family members and banned their travel, as well several other 
key Libyan leaders. At the same time, the United States froze the 
assets of the Government of Libya. We are now moving as rapidly as we 
can in New York to see if we can get additional authorization for the 
international community to look at a broad range of actions. As the 
President stated, all options remain on the table. At the same time, we 
are working with our partners to identify and disrupt the flow of 
mercenaries into Libya, in order to deny Qadhafi another weapon against 
his own population. We will continue to respond to the humanitarian 
crisis unleashed by Qadhafi, with our $47 million in emergency relief 
providing food, water, shelter, medical supplies, and evacuation 
assistance to those fleeing the violence.
    A second element of a successful U.S. strategy, closely connected 
to the first, is strong support for economic modernization. In the 
short run, that means helping Egypt and Tunisia, for example, to 
navigate past significant difficulties created by political turmoil and 
the temporary collapse of tourism. In Egypt, for instance, it means 
helping the authorities sustain, and build popular support for, the 
hard-fought structural reforms of the last decade that produced 7 
percent annual growth rates and $10 billion a year in foreign 
investment, while also helping to extend the benefits of economic 
growth to all parts of Egyptian society. Not only in Egypt, but across 
the region, economic growth needs to be restored in a way that provides 
opportunity to the young, the unemployed, and those who have not been 
part of the formal economy. In the longer run, that also means thinking 
boldly and ambitiously about how we can promote genuine modernization.
    We strongly support the Enterprise Funds for Egypt and Tunisia that 
you, Mr. Chairman, and Senators McCain and Lieberman have proposed. 
Secretary Clinton just announced that the Overseas Private Investment 
Corporation will provide up to $2 billion to stimulate private sector 
investments in the Middle East and North Africa. In addition, the U.S. 
has established unique outreach efforts under the State Department's 
Global Entrepreneurship Program to catalyze private and public 
resources in building an effective ecosystem for innovation and 
business startups.
    It is also crucially important to consider the expansion of trade 
opportunities for key Arab States in transition, including trade 
liberalization initiatives, ideally in cooperation with the EU, to help 
the Arab world compete globally, provide education relevant to market 
needs, create an environment conducive to private sector investment, 
and alleviate poverty among large segments of the population. In the 
process, we can help encourage intraregional trade and integration in a 
region in which both are in short supply. The U.S. is actively engaging 
with Egypt, for example, to address outstanding issues in order to 
expand the Qualified Industrial Zone (QIZ) program, which allows duty-
free entry to the U.S. for Egyptian products. Through initiatives like 
this, we can help produce private sector jobs desperately needed to 
keep pace with demography and expectations. And we can help spread the 
benefits and opportunities of economic growth across Arab societies, 
rather than just to a narrow circle at the top.
    The success of political transitions will require strong, practical 
economic results, and creating a sense of economic hope. Much of that 
obviously depends on Arab countries themselves, who need to put 
themselves in a better position to compete in a very unsentimental 
global marketplace. But it is deeply and urgently in our self-interest 
to do all that we can to help.
    A third element of a positive American agenda for the Middle East 
is the pursuit of comprehensive Arab-Israeli peace. The status quo 
between Arabs and Israelis is no more sustainable than the sclerotic 
political systems that have crumbled in recent months. Neither Israel's 
future as a secure Jewish, democratic state nor the legitimate 
aspirations of Palestinians can be secured without a negotiated two-
state solution. While the parties themselves must ultimately make the 
hard choices necessary for peace, there is also no substitute for 
continued active American leadership. We continue the persistent, day-
in-and-day-out, high-level American engagement, working privately with 
all parties to create an environment for resumed, meaningful and 
substantive negotiations on all core issues. We are committed to 
ensuring that political changes on Israel's borders do not create new 
dangers for Israel and the region, and we welcome the Egyptian 
leadership's rapid and repeated reaffirmation of its international 
treaty obligations.
    A fourth element is our own huge and enduring stake in regional 
security--in strengthening ties to the GCC states; in fighting 
terrorism; in preventing Iran from developing nuclear weapons and 
setting off a catastrophic regional arms race; in maintaining our 
partnership with Iraq as Iraq goes through its own crucial democratic 
transition and reintegration into the Arab world. We have to remain 
clear-eyed and resolute about the threat that Iran's leaders pose 
across a number of areas--and equally straightforward in our support 
for the aspirations of Iranian citizens for freedom and dignity. The 
truth is that nowhere in the region is the disconnect between rulers 
and ruled any greater than it is in Iran. The hypocrisy for Iran's 
leaders to profess their enthusiasm for democratic changes in the Arab 
world while systematically denying them to their own people is clear to 
all, including Iranian citizens.
    Working with Congress and our international partners, we will 
continue to intensify efforts to hold Iran accountable for its 
persistent failure to comply with its obligations under 6 UNSC 
resolutions and 10 IAEA Board of Governors resolutions. Iran's refusal 
to enter into a constructive dialogue with the P5+1 helped forge a 
strong international consensus behind the toughest set of U.N. Security 
Council resolutions to date. Working with the EU, Australia, Norway, 
Japan, Canada, and South Korea, we have tightened those sanctions 
further. Even as we have left the door open to engagement, we have 
sharpened the choices confronting the Iranian leadership. Since July 
2010, we have designated 90 entities and 25 individuals for their 
involvement in and support of Iran's nuclear program and terrorist 
activity. We have also designated 10 individuals for their involvement 
in human rights abuses in Iran, and along with a number of other member 
states, we strongly condemned Iran's record at the Human Rights 
Council. Finally, we have used the Comprehensive Iran Sanctions 
Accountability and Divestment Act to disrupt Iran's energy sector by 
sanctioning one of Iran's most important oil companies. Sanctioning 
this firm, which secures much of Iran's foreign investment and supplies 
of refined petroleum, has chilled its relationships with foreign 
traders and investors. We have also secured the withdrawal of five 
major international oil companies from Iran using CISADA's special rule 
provision. With the drying up in Western energy investment in Iran, we 
have denied the regime the profits, the technology, and the know-how 
that comes with it.
    Mr. Chairman, this is one of those moments that come along only 
very rarely in the course of human events. It is full of historic 
opportunities, and some very large pitfalls, for people in the Middle 
East, and for the United States. It is a moment which demands our 
attention and our energy, and as much creativity and initiative as we 
and our partners around the world can generate. I look forward very 
much to working closely with you and Senator Lugar and the members of 
this committee in the weeks and months ahead.
    Thank you again for the opportunity to appear before you today.

    The Chairman. Well thank you, Mr. Secretary. We are 
delighted to have you, as I said.
    How would you characterize the progress to date and the 
process as it goes forward in Egypt, with respect to the 
military council?
    Mr. Burns. Well, Mr. Chairman, I think Egyptians have made 
remarkable progress in recent weeks, especially when you 
consider that it was only a little less than a month again that 
the Mubarak era ended. The military and the Supreme Armed 
Forces Council has played a responsible role. We have in place 
a new transition government that I think has widespread 
credibility amongst the population. A few days ago the Egyptian 
leadership took the significant step of disbanding the state 
security apparatus which was a long-held demand of the youth 
activists and many of those in Tahrir Square. And as Senator 
Lugar mentioned earlier, there have been amendments drafted in 
the Constitution, a referendum scheduled in a few days for 
Egyptians to vote on that.
    Having said all that, I think Egyptians themselves 
recognize that there are a number of challenges before them. As 
you look at experiences around the world and Senator Lugar 
mentioned the Philippines, it takes time and space to organize 
new political parties and so elections require very careful 
preparation, especially for the Parliament and that's a theme 
that many thoughtful Egyptians have stressed and Secretary 
Clinton discussed that when she was in Cairo a couple of days 
ago.
    The Chairman. Did she get a response from them with respect 
to the timing?
    Mr. Burns. I think there is a discussion that is going on 
within the leadership about, you know, how best to sequence 
these steps. Obviously these are decisions that Egyptians 
themselves have to make, but I think they are weighing 
carefully all of those considerations.
    The Chairman. Well, I'm going to be there on Sunday and I 
will be meeting with them and I hope we can weigh in and 
encourage that. I think the advisability of having the 
Presidential race before the parliamentary race is obvious and 
everybody I have talked to seems to indicate that that would be 
better, but it is not certain at this point. Is that correct?
    Mr. Burns. No, sir. I think that is an issue that the 
Egyptians are still debating amongst themselves, but it is a 
healthy debate that is going on.
    The Chairman. Right. What is your sense of the degree to 
which the civil society, which has always been present but 
under the radar screen in Egypt, to what degree is it now 
surfacing with--I mean what is the level of robustness of that 
and the energy within it? What do you sense? Are people seizing 
this moment?
    Mr. Burns. Well, I think Egyptians are seizing it with 
enormous pride and enthusiasm. And it is very hard not to come 
away from, not just Tahrir Square, but discussions with 
Egyptians, especially youth leaders, civil society activists, 
and not feel not only impressed but their feeling of optimism 
about what is possible in Egypt.
    You know, as I said, there are a number of challenges on 
the road ahead but I am convinced that Egyptians are entirely 
capable of solving those problems and building the kind of 
political system that they deserve.
    The Chairman. Can you share with us, I know it is not the 
place to go into all of the specifics, but Secretary Clinton 
met with Mahmud Jibril, the representative of the Libyan 
opposition. And many people have been sort of saying, well who 
is the opposition and so forth. Can you describe that a little 
bit--what her conclusion was or the State Department's sense of 
that meeting and the opposition itself, perhaps?
    Mr. Burns. Well the Secretary had a long and quite thorough 
discussion with Mr. Jibril and I think came away impressed with 
his seriousness. We are familiar with a number of the other 
members of the Libyan National Council and have been similarly 
impressed, at least with those with whom we have spoken, about 
their commitment to building a stable Libyan society. We are 
still in the process of trying to talk to other members of the 
council and developing a clearer picture, so I don't want to 
pretend that we have a full picture in which we have total 
confidence. But we have been impressed so far with, you know, 
what they've said, about what their ambitions are and what 
their sense of how the outside world can help.
    The Chairman. And what kind of future are they describing 
to you for Libya?
    Mr. Burns. Well, what they have described, at least so far, 
is a future in which they want to build democratic 
institutions, a secular future for Libya in which, you know, 
the broad range of Libyan citizens are able to participate in a 
way that they haven't been for the last four decades. So it is 
easier, certainly, to paint a picture like that than it is to 
construct a new system. But, in terms of what they have said to 
us, it has been generally positive.
    The Chairman. What is the impact of the French recognition 
of the opposition?
    Mr. Burns. Well, what we are focused on, Mr. Chairman, is, 
you know, much more the building of practical ties to the 
Libyan National Council, quite apart from the formal issue of 
recognition. We have authorized the Libyan National Council to 
open a representative office in Washington----
    The Chairman. Now, I'm not suggesting that we do that. I am 
not at all suggesting, I am just asking what the impact is on 
the thinking of some of our allies with respect to the events 
unfolding and the ability to try to put pressure on Qaddafi, et 
cetera, as we go forward.
    Mr. Burns. Well, I think it is a step along side the 
practical measures that we and others are taking with the 
Libyan National Council to enhance their credibility and to 
underscore the importance of building an alternative future for 
Libya.
    The Chairman. What do you understand the situation to be 
now with respect to Qaddafi's forces in Benghazi?
    Mr. Burns. Well, it is a very fast moving situation, as you 
know very well. Qaddafi's forces have made significant strides 
on the ground, over the course of the last 24, 48 hours. I 
believe they are only about 160 kilometers from Benghazi right 
now. So the situation is very fluid, but they have made 
advances, taking full advantage of their overwhelming 
military--or superiority in military firepower, at least.
    The Chairman. I understand that is principally articulated 
through a certain number of tanks and a certain number of 
artillery pieces. Is that correct?
    Mr. Burns. Yes. In addition to the capabilities of the 
Libyan Air Force. Yes, sir.
    The Chairman. And the Air Force, there have been I think 
slightly less than 20 but somewhere in that vicinity of sorties 
per day?
    Mr. Burns. Yes, sir; I think that is right.
    The Chairman. Yes. With respect to the situation in 
Bahrain, it has obviously taken a dangerous turn in the last 
couple of days. What is your sense of the ability now of the 
Crown Prince to convene a meaningful national dialogue given 
the violence that has taken place and the movement of Saudi 
troops into Bahrain?
    Mr. Burns. Well, Mr. Chairman, it is obviously a very 
complicated situation. I mean we have strongly supported, we 
continue to strongly support the Crown Prince's efforts to 
begin a serious national dialogue. We have urged both the 
government and the opposition parties to engage in that 
dialogue.
    As Secretary Clinton said yesterday, we and many others 
around the world are alarmed and troubled by the situation we 
see and we have continued to emphasize that there is no 
security solution to the legitimate aspirations of Bahraini 
citizens, that there has to be a political solution which you 
can only arrive at through dialogue. And that is a point we are 
going to continue to emphasize, particularly when we see 
excessive use of force against demonstrators. And we have 
continued to call on all parties, including hard-line 
oppositionists to avoid violence.
    The Chairman. Do we have any leverage besides our voice? Is 
there any--I mean if you connect the dots, are there ways in 
which you believe we have an ability to be able to have an 
impact or are we kind of on the sidelines watching? And if so, 
what do we do with respect to the balance of the principles 
that we espouse with respect to Tahrir Square versus now?
    Mr. Burns. Well, Mr. Chairman, we are committed to applying 
those universal principles in every situation that emerges, 
whether it is in Bahrain or any place else. As I said in my 
opening remarks, in the case of societies like Bahrain where 
protests have begun, change is still uncertain. We are going to 
continue to do everything we can. We are not the only voice in 
this, there are others in the international community voicing 
similar concerns, to urge a resumption of political dialogue, 
the dialogue the Crown Prince has tried to start. Because that 
is the only way, I think in which you can produce the kind of 
outcome that Bahraini's deserve.
    The Chairman. Thank you.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Secretary Burns, I'm very much concerned, as my opening 
statement pointed out, not only about recent events in Libya or 
Bahrain or Yemen, but likewise about potential United States 
involvement in any of these situations and the conditions in 
which we could become involved.
    We had long discussions in this committee before our 
participation in Iraq, for example. One can say that 
undertaking was of a different magnitude altogether, but the 
idea was to overthrow the regime of Saddam Hussein and to bring 
about a democratic Iraq as a shining symbol in the Middle East.
    Now we are at a point in which, as I understand it, our 
Ambassador to the United Nations, Susan Rice, is quoted as 
saying yesterday, ``We are interested in a broad range of 
action, which would protect civilians and halt the killings.'' 
She said the Security Council needs to, ``be prepared to 
contemplate steps that include but go beyond a no-fly zone.''
    One press account says that the draft resolution introduced 
by the British and the French contains controversial language 
authorizing, ``all necessary measures,'' to protect civilians. 
This could be interpreted as permitting strikes against 
government ground forces and the use of combat forces on the 
ground in Libya.
    Now, I mentioned the Arab League endorsement of the no-fly 
zone in my opening statement. The Arab League in its statement 
reportedly opposed any ``foreign intervention'' in Libya. The 
Arab League later noted that its approval of a no-fly zone 
would expire, ``at the end of the crisis,'' whatever that may 
be defined as.
    I mention all of this simply because I want to ask you 
precisely what authorities are we seeking in New York? Assuming 
the Security Council would vote in favor of the resolution, 
whether it is supported by the French or the British or 
ourselves, what role do you envision the United States military 
forces and, separately, those of other countries, having to 
play?
    And furthermore, the President has not yet really spoken 
directly to United States national interests at stake in Libya, 
aside from our opposition to Qaddafi and the protection of 
innocent civilians. Does the President plan to spell out what 
our national interests are in Libya that might justify the use 
of our Armed Forces?
    And finally, there is at least a report that Qatar and the 
United Arab Emirates have agreed to participate in a no-fly 
zone. Does this Arab commitment include financial support of 
this operation, which will be expensive? Even the no-fly zone 
alone, without the no-drive zone or the rest of it, is 
expensive. We're having huge debates every day on the floor of 
the Congress about our national budget and yet this seems to 
proceed in a manner entirely divorced from this. It will not be 
that way for long.
    So, I ask you all of this in one set of questions because 
of the constraint of time. But could you explain, generally, 
what the administration's view is?
    Mr. Burns. Thank you very much, Senator Lugar and those are 
all very fair concerns and very fair questions.
    I'd make several points in response. First, as I said we 
and others in the international community have been 
increasingly concerned, over the course of the last few days, 
with what is developing in Libya. The Secretary General of the 
United Nations warned yesterday of the dangers of a true 
humanitarian catastrophe, given the past behavior of Mr. 
Qaddafi and his regime.
    Second, as you said, the Arab League, last Saturday, took a 
quite important and unprecedented step when it called for the 
United Nations to authorize measures to protect civilians in 
Libya, including a no-fly zone. Since that time we have been 
working actively in the Security Council to pursue such a new 
resolution, which the Lebanese, along with the British and 
French, have put forward. And as Ambassador Rice described 
yesterday, among the options that are being discussed today are 
measures including a no-fly zone, but not limited to that, to 
protect civilians from bombardment by Qaddafi's forces.
    I don't know what the Security Council ultimately is going 
to produce. We are working hard to try to produce a serious 
resolution and produce it quickly, given the pace of events on 
the ground.
    We have emphasized, in addition, two things. The first is 
that we want this to be an international response with 
authorization from the Security Council. We are not seeking a 
unilateral effort here. And second, beyond the statement that 
the Arab League issued, we are interested in active Arab 
partnership in such an effort, both in the measures that would 
be taken and also, potentially, in the financial support for 
them. And those are discussions that we have begun, including 
with particular Arab States that have expressed an interest and 
a willingness to participate in this.
    My final comment would simply be to emphasize that I know 
the President and Secretary Clinton take very seriously the 
importance of continued close consultation with the 
congressional leadership on these very important issues and I 
know the White House will remain in touch with the 
congressional leadership on this in the days ahead.
    Senator Lugar. Well, let me then be more direct in terms of 
congressional consultation. That is important and certainly 
welcome. My view is that there should be considerably more than 
that. There should be congressional participation. 
Specifically, if we are going to declare war against Libya, 
then we ought to have a congressional declaration of war. Now 
what I question is, Is the administration authorized, 
constitutionally, to simply proceed into a conflict in Libya 
involving American forces without a declaration of war?
    We have unfortunately, I think, participated in some wars 
in recent years in which there was not a declaration of war by 
the Congress. I would like to prevent that from occurring 
again. And I think we are on the threshold, not only with 
regard to Libya but also the stream of civil wars currently 
taking place in the region. Now is it our policy, generally, 
that the administration might simply participate in select 
civil wars on behalf of what it believes is the best interest 
of the country by simply citing humanitarian concerns? What is 
your view about the congressional debates and a declaration of 
war against the sovereign State of Libya, if that is our 
intent?
    Mr. Burns. Well, I'd say two things, sir. First, I agree 
with you that we need to be extraordinary careful in how we 
approach these kind of situations and we also need to approach 
them with a sense of humility about our role and our influence. 
And the President and Secretary Clinton and others have been 
very, very careful in how they have looked at the situation 
that has emerged in Libya as well as elsewhere in the region.
    That is why we have attached so much emphasis to making 
this an international response authorized by the U.N. Security 
Council and attach so much importance to active Arab 
partnership, not just declarations, in any such effort.
    So I agree with you, we need to be very, very careful on 
these issues. And I understand the seriousness of the concern 
you raised about the nature, not just of consultation but of 
efforts between the administration and the Congress and I will 
convey that very directly to Secretary Clinton and the White 
House.
    Senator Lugar. Thank you very much.
    The Chairman. Senator Casey.
    Senator Casey. Thank you very much.
    Under Secretary Burns, thank you for being here, for your 
great service to the country.
    I wanted to ask, in light of the previous questions you've 
answered about the region I want to ask you about two places in 
particular, one is Iran and one is Lebanon.
    First of all, with regard to Iran, we know that last year 
we made tremendous progress, not just here in Washington, but 
in other parts of the world as well, to get sanctions in place. 
I wanted to ask you about ways that the administration either 
is planning to, or believes we should, increase our ratchet up 
the sanctions on Iran. And I know, on page seven of your 
testimony, the bottom of that second full paragraph, you talk 
about the impact of sanctions and some of the results. I'd ask 
you to speak to that.
    But then second, how do we, on a parallel track, but even 
as important, how is the administration going to continue to 
support the democratic opposition, domestic opposition, 
sometimes known as the Green Movement, even as we are 
implementing and I hope, increasing sanctions?
    Mr. Burns. Thank you very much, Senator Casey.
    As you know, as we have discussed before, we are continuing 
to work very hard to apply the unprecedented sanctions which 
are already in affect against Iran, building on the platform of 
U.N. Security Council Resolution 1929, but also making full use 
of our own new national laws, as well as what the European 
community has done. And I think we're making significant 
progress in that direction and we're going to continue to push 
quite hard, I think it's had an impact on the capacity of the 
Iranians to attract new investment in their energy sector, it 
has had an impact on what is already a very badly mismanaged 
Iranian economy. So we are going to continue to press very hard 
on that front.
    With regard to human rights and the rights of Iranian 
citizens to the same kind of freedom and dignity and 
opportunity that you see sweeping across the Arab world, as I 
said, it really is the height of hypocrisy for the Iranian 
leadership to on the one hand applaud those kind of steps in 
the Arab world and at the same time deny those same rights to 
their own people. We have designated 10 senior Iranian 
officials, just over the course of the last few months, for 
human rights abuses and that is a process that we are going to 
continue.
    As you know, we will continue to try to apply, 
constructively, assistance in expanding Internet freedoms, for 
example, for Iranian citizens to help them find their voice and 
pursue the kind of rights that people elsewhere in the region 
are pursuing right now.
    Senator Casey. And I appreciate that answer. It seems as if 
everywhere you look in the region you see the impact that Iran 
is having. The regime is having an impact, just by way of one 
example, Hezbollah and the destabilizing impact that has on 
Lebanon and the region, Hamas, wherever you look you see 
Iranian fingerprints, Afghanistan, Iraq. So I would urge the 
administration to do everything possible to increase sanctions, 
even as the ones that are authorized now are being implemented.
    Let me move, and I know we don't have a lot of time, but I 
wanted to move to the question of Lebanon. I was there in July. 
It is remarkable, just my own sense of it, but it is remarkable 
the heavy presence in that country and especially in Beirut 
that Hezbollah has, almost as if it is an organized crime force 
that has a really intimidating influence on leaders. You are in 
a meeting with a government official, you just mention the word 
Hezbollah and you can see them almost physically recoiling or 
becoming tense.
    We know what has happened, we know that there is a 
transition going on, Prime Minister Hariri is out and they are 
in a transition phase. I guess in light of that change and the 
destabilized environment, and in light of the direct threat 
that Hezbollah presents for the region, for our own security, 
what assurances, what checks can we put in place, as Members of 
Congress, to make sure that when the administration comes to us 
and says, we have been aiding the LAF, the Lebanese Armed 
Forces and want to continue that dollars don't get in the hands 
of forces that we don't want to end up in or that Hezbollah 
will use our dollars. The administration has a request for 2012 
of $227\1/2\ million, what assurances can you provide us and 
what checks do we have to make sure that those dollars don't 
aid and abet and benefit Hezbollah?
    Mr. Burns. Thank you very much, Senator.
    We have a number of safeguards and end-use checks in place 
now to ensure that equipment and training that we provide to 
the Lebanese Armed forces, which does play a very important 
stabilizing role as a national institution in Lebanon, are used 
properly and the way that we intend them to be used. And we are 
continuing those training and equipment programs as the new 
Lebanese Government is formed.
    As you know, Prime Minister Makati is still in the process 
of forming that government. And we have made clear that we are 
going to review our assistance program once that government is 
formed, once we see what its program is and its policy 
statements are.
    We have made clear to the Prime Minister-designate that we 
will judge him and his government by their actions not just 
their words. He said that he is committed to a unity government 
that reflects the views of the wide spectrum of Lebanese. He 
said that he is committed to fulfilling Lebanon's international 
obligations. And as I said, we are going to judge by the 
actions that flow from that. So once a new government is 
formed, you know, once its platform is made clear, then we will 
take a very careful review of our assistance program in light 
of that. But in the meantime we will continue to apply the 
safeguards and end use monitoring mechanisms.
    Senator Casey. Thank you very much.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman and Secretary Burns 
for your great service to our country.
    The declaration war question that was asked by Senator 
Lugar, I noticed that was not answered and in other hearings 
I've been in I notice people have been moving way beyond the 
no-fly zone saying that in essence that really isn't enough to 
protect civilians and now people are beginning to talk about a 
no-drive zone, which obviously means a whole different level of 
engagement.
    So, I would just like a yes, no. Does the administration 
believe that if we are going to have a military effort of any 
kind in Libya, that we need a declaration of war by Congress? 
It is a yes, no answer.
    Mr. Burns. Senator, I can't give you a yes, no answer, what 
I can tell you is that we take very seriously the concern you 
raised and I will certainly convey it to Senator Clinton and 
the White House and we will be in very close touch with 
congressional leadership.
    Senator Corker. Was that a legal question that we need to 
ask? Or I mean it is a----
    Mr. Burns. No, it is----
    Senator Corker [continuing]. I mean it seems to me it is a 
pretty clear cut yes, no. I mean do you all feel that you need 
to come to us for a declaration of war or not?
    Mr. Burns. It is----
    Senator Corker. I mean you have to be talking about that, I 
know.
    Mr. Burns. Right. No; it is a very important question, I 
can't answer it for you right now, honestly. But we certainly 
owe you an answer to that. I understand.
    Senator Corker. It seems like it would be a very important 
answer if we are having serious dialogue with the United 
Nations over committing forces there.
    I mean you know, the other thing that has been sort of 
interesting to me as we have had other briefings in classified 
settings and in not classified settings, but no one seems to 
know who the opposition is. I mean can you tell me who it is we 
would be joining forces with on the ground or anything about 
their ideology or what their goals are?
    Mr. Burns. Well Senator, as I mentioned before, we have had 
a number of contacts with the members of the Libyan National 
Council, which was formed relatively rapidly in Benghazi a few 
weeks ago. Secretary Clinton met with Mahmud Jibril one of 
the----
    Senator Corker. I understand about the meeting, but do we 
know, from those meetings, I'm no really worried about the 
chain of events, but do we know who the opposition is? Do we 
know what their goals are?
    Mr. Burns. We do have a sense from those--the leaders with 
whom we have met in the Libyan National Council that their 
goals seem to be to try to create a democratic system in Libya, 
a secular symbol, that they seem intent upon realizing the 
rights that Libyans are seeking. They are looking for outside 
help in that effort.
    But as I said before in response to the question from the 
chairman, you know, we are still in the process of trying to 
develop as full a picture as we can. Based on the meeting we 
have had so far, that is the picture that we have had.
    Senator Corker. Would it be good to--before committing U.S. 
troops and military action and money--would it be good to sort 
of know more fully who it is we are coming to the aid of?
    Mr. Burns. I think we are developing a pretty clear 
picture, but certainly we are trying to flesh out that picture 
as fast and as comprehensively as we can.
    Senator Corker. Are there potentially other extremist 
groups that are coming into the area to fight against Qaddafi 
that may in fact be the very people we dislike greatly? Is 
there a chance that we actually could be aiding the efforts of 
extremist groups who are potentially involved in the area?
    Mr. Burns. There is certainly the potential that extremist 
groups could try to take advantage of this or extremist 
fighters could, and we are very well aware of that. On the 
other hand, I think there is also a very real danger that if 
Qaddafi is successful on the ground that you also face, you 
know, a number of other considerable risks as well, the dangers 
of him returning to terrorism and violent extremism himself, 
the dangers of the turmoil that he could help create at a very 
critical moment elsewhere in the region. But we are very 
mindful of the risks that you mentioned about extremists taking 
advantage of this.
    Senator Corker. So in light of that, I know Senator Lugar 
asked the question about national interest, could you, I know 
the President hasn't yet stated what our national interest is, 
but could you give a stab at that?
    Mr. Burns. Sure. I think we have first, part of our 
national interest is avoiding a humanitarian catastrophe in 
Libya. That is not something that is shared only by the United 
States, that is why there needs to be an international response 
with active Arab participation. Second, I think at a moment of 
truly profound change across the region, what we have an 
important national stake in, is in demonstrating in places like 
Egypt and Tunisia where people are moving in a positive 
direction, that those transitions succeed. But in places like 
Libya where there is a real danger of increasing violence and 
turmoil and repression, that the international community, the 
Arab world as a part of that, stands against that kind of an 
outcome.
    So what is at stake here, in terms of American interests is 
about more than just Libya, it seems to me.
    Senator Corker. And the genesis of what happened, what is 
happening right now in Libya you consider to be similar to what 
has happened in Egypt then, because again, it seems to me we 
had a much better sense of what was causing activities in Egypt 
and it seems to me we have a very vague sense of that in Libya. 
But your judgment is that it is driven by the same things?
    Mr. Burns. Yes, sir. My judgment is that it is the same 
aspirations of people to realize their human rights that is at 
the core of what is driving the situation in Libya right now. 
Libya has always been a much more opaque society for us or 
anybody else, including in the Arab world, to understand 
compared to a place like Egypt. So you are right, there are a 
lot of question marks but I think, honestly, that what is 
driving this is the same aspirations that you see elsewhere in 
the Arab world today.
    Senator Corker. And do we have a sense of what China and 
Russia might do at the Security Council as it relates to Libya?
    Mr. Burns. It is hard to predict, sir. You know, they have 
some concerns, I think, about some of the measures that are 
being debated right now. And it is a debate that has literally 
gone on as we speak.
    Senator Corker. And is it your judgment that, like I think, 
most people that we have heard from recently, that at this 
point a no-fly zone really does no good with Qaddafi and his 
troops being where they are. So really we wouldn't be talking 
about a no-fly zone unless we were just trying to act as if we 
had done something, we would really talking about much more 
than that, aren't we, really dealing with the tanks that are on 
the ground, moving into civilian populations? I mean that is 
really what we would have to be talking about unless we were 
just trying to act like we were doing something. Is that 
correct?
    Mr. Burns. That is exactly why, in the Security Council 
right now the debate is about measures that include a no-fly 
zone but go beyond it. I think a no-fly zone can have an 
important, positive, practical effect but I think honestly we 
have to look at other measures as well.
    Senator Corker. Well, I appreciate your service and your 
candor and certainly I always enjoy seeing you. Thank you.
    The Chairman. Thank you very much, Senator.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary.
    I want to continue to pursue Senator Corker's line of 
questioning, because I am still not sure what we support. It 
seems to me a dangerous proposition to urge people to seek 
democracy and revolt and then not help them. I am concerned, as 
I listen to your answers, with what happens if Qaddafi 
prevails. The situation in Libya is rather grave, and I think 
we are going to miss an opportunity to promote democracy, with 
a small ``d'', throughout the region, be seen as on the side of 
those who have aspirations of freedom and ultimately be able to 
help shape the course of events that flow from those ideals, 
not only in Libya but beyond. And at the rate that it is going 
Qaddafi is probably going to capture Benghazi if we don't see 
some movement there by the international community.
    So, what are we seeking to support? I read the statements 
and get a sense it is like the Texas two-step; we want to 
support this but we are concerned about that. So, are we 
talking about acting if the international community was on 
board, beyond the no-fly zone? Are we talking about targeted 
airstrikes on Qaddafi's tanks and heavy artillery? Are we 
talking about jamming Libyan Government radio signals? Are we 
talking about using the $32 billion in frozen assets to provide 
significant humanitarian relief? What are we talking about 
here, if we are serious about trying to help and shape the 
outcome here?
    Mr. Burns. Senator Menendez, we are talking about a whole 
range of measures that go beyond, including steps that go 
beyond the no-fly zone. That includes a number of the steps 
that you mentioned. That is what is being debated in the 
Security Council right now. And we----
    Senator Menendez. I'm sorry to interrupt you, sir.
    Mr. Burns. Sure.
    Senator Menendez. Beyond discussing it, are we advocating 
it? Are we leading the effort at the Security Council or are we 
just in eliciting mode?
    Mr. Burns. No; we are, as Ambassador Rice said yesterday, 
we are actively pursuing this because of our concern, not only 
about the situation on the ground, the dangers of a 
humanitarian catastrophe but in response to what was a quite 
unprecedented call from the Arab League for action by the 
Security Council to protect civilians. So we are trying to look 
as urgently as we can at the situation on the ground and then 
press for action in the Security Council, just as quickly as we 
can produce it, ideally today.
    Senator Menendez. And what are we seeking to pursue at the 
Security Council? What is the scope? What would we be happy to 
support?
    Mr. Burns. Well, as Ambassador Rice said yesterday, we are 
pursuing, along with the Lebanese, the British, French, other 
partners in the Council, measures that include a no-fly zone 
but could go beyond it. And I can't in this session, since the 
debate is going on in the Security Council right now, go into a 
lot of detail about that, but there are measures short of boots 
on the ground that could be taken by the international 
community, including active Arab participation to address some 
of the very real dangers that mentioned. That is what we are 
pursuing.
    Senator Menendez. So let's say, God forbid, that Qaddafi 
prevails at the end of the day. Do we have any doubt in our 
mind having seen what the international community said but 
didn't do, that he will revert to a series of views that will 
not be in our national or security interests?
    Mr. Burns. I think there is a very real danger of that and 
I think there is a very real danger that you could see a 
reversion to support for terrorism, you can see a very real 
danger of efforts to destabilize the region that already faces 
more than its share of challenges right now, with the political 
transitions going on in the neighborhood. So I think there is a 
great deal at stake here and that is what creates a real sense 
of urgency on our part.
    Senator Menendez. In a slightly different context, but 
still in Libya, has the State Department engaged the former 
Justice Minister Mustafa Abdel Jalil in a conversation and as 
part of that conversation sought to verify his statements that 
Qaddafi ordered the bombing of the Pan Am 103 flight?
    Mr. Burns. I don't know, Senator, if that conversation has 
taken place yet, but we certainly will pursue it with the 
Department of Justice.
    Senator Menendez. Well, as Qaddafi certainly has a price 
tag on his head, while we have access to him along with an 
opportunity to engage him and hopefully even video-tape a 
conversation, I would hope that we don't lose a precious 
opportunity to verify his public statements. We always had 
suspicions to that effect, and this would be evidence that 
Qaddafi ordered the bombing of the Pan Am 103 flight in which 
several hundred Americans lost their lives, including many from 
my home State of New Jersey.
    And as someone who has pressed forth on this issue, I don't 
want to lose a golden opportunity to ensure that we have 
information that could lead to a prosecution regardless of the 
results in Libya. So I really hope that you, i.e., the State 
Department--I raised this with Secretary Clinton as well when 
she was here--as well as the Justice Department will take 
advantage of this opportunity. Can we get you to pursue that?
    Mr. Burns. I agree with you, we will.
    Senator Menendez. All right. Finally, I want to follow up 
on Senator Casey's comments with reference to Lebanon. 
Hezbollah is likely to have a dramatically increased role in 
this new Lebanese Government. Where is the United States 
redline in our relationship with Lebanon? Are we willing to 
maintain a relationship with a government that is controlled by 
a terrorist group?
    Mr. Burns. Well, as I said, you know, Prime Minister 
Mikati, the Prime Minister-designate, has asserted that he 
wants to form a unity government which reflects the will of all 
Lebanese. He has asserted that Lebanon is committed to 
fulfilling its international obligations. It remains to be seen 
what kind of government he is going to form and exactly what 
platform that government is going to put forward. And as I said 
before, we will judge that government, when it is formed, by 
its actions.
    As you know, we are firmly convinced that Hezbollah is a 
terrorist organization. We don't deal with Hezbollah, but we 
will have to wait and see exactly what that government looks 
like and what it stands for.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Rubio.
    Senator Rubio. Thank you.
    I guess I will start kind of with a question couched in a 
statement and I want to be frank about it, because this is 
really troubling. From everything I have read, from folks we 
have been talking to, from all the accounts that are out there, 
the United States, quite frankly, looks weak in this endeavor, 
it looks unwilling or maybe even unable to act in this 
capacity. Even worse, I think really calling attention to it 
with Britain, France, the Arab League are all out there calling 
not just attention to this but specifying specific actions they 
would like to see taken. We have seen criticism from the Libyan 
resistance and Libyan opposition as to our position, puzzlement 
as to where the United States is a new phase.
    I would ask you basically to comment, not just on the 
Libyan situation, but on the impact that our inaction and quite 
frankly, you know, our puzzling inaction to most of the people 
around the world, what impact that is having on the image of 
the United States in the region and around the world with 
regards to future potential conflicts. Is the message that we 
are sending that when future conflicts arise the United States 
actions are difficult to predict, they may be none, that the--
that basically people--you know, leaders--that the way 
basically to repress and bring down resistance like this is to 
be brutal? What are we going to do if there is a bloodbath 
after this?
    The President of the United States has specifically said 
Qaddafi must go, but has done nothing since saying that, except 
have internal debates about it for a week and a half or two. 
Congressional leadership in both parties have strongly called 
for a no-fly zone and other actions and nothing has happened. I 
mean all of this I think comes--is a toxic brew that is really 
undermining the perception of the United States and our ability 
to influence events, not just in this area of the world, but 
all over the world.
    Has there been any analysis done on the impact this is 
having on the perception of the United States in the region and 
around the world, the damage that this inaction is doing?
    Mr. Burns. Well Senator, I guess I would say two things in 
response. First, in general as I, you know, tried to emphasize 
in my opening remarks, we understand exactly what is at stake 
across the Middle East right now. What is at stake in terms of 
doing everything we can to support successful transitions in 
places like Egypt and Tunisia, which I think hold enormous 
opportunities not just for the peoples of those countries, but 
for the United States.
    We also understand what is at stake at Libya and I believe 
we have acted, the President, Secretary have acted quite 
energetically in recent weeks to press for the first U.N. 
Security Council Resolution 1970 to freeze more than $30 
billion in Libyan regime assets in the United States, to 
establish contact with the Libyan National Council, to work 
actively with the Arab League, which as I said last Saturday 
produced a quite unprecedented call for the Security Council to 
authorize specific measures to protect Libyan civilians. And 
that is what we are embarked upon in New York right now, 
working very actively, leading an effort, along with the 
Lebanese, the British and French, to try to produce exactly 
those kind of specific measures. And we feel a real sense of 
urgency about this for all the reasons that you mentioned.
    Senator Rubio. But to say we are pressing the United 
Nations and that is energetic action, the Security Council, is 
to basically say the United States--and to say that is what we 
are going to limit ourselves to, what we are basically saying 
is the United States may feel strongly about something but we 
are not doing anything that the Chinese and Russians don't 
agree with.
    Mr. Burns. I think what is important here, the 
administration is committed to trying to make this an 
international response. We have seen some significant steps 
taking particularly by the Arab League, which are quite 
unprecedented. And we believe that we are going to have a 
greater impact and more effectiveness if we do this as an 
international response rather than a purely unilateral one.
    Senator Rubio. I understand. But Russia and China don't 
care about this stuff, they are never going to get involved in 
these things. I mean they don't care that Muammar Qaddafi is 
going to massacre people. So if Russia doesn't care and China 
doesn't care and we care but won't do anything about it, who is 
it up to, the French?
    Mr. Burns. Well, but Senator, I actually think it is 
possible to produce a new Security Council resolution, I just 
don't share the judgment that it is not possible. I think, you 
know----
    Senator Rubio. Well, when is that resolution going to 
happen? After the bloodbath, in the middle of the bloodbath?
    Mr. Burns. Well, I hope very much that we will see a vote 
today. We are pushing very, very hard, along with others in the 
Security Council, to produce that because exactly as you say, 
the situation on the ground is moving very fast.
    Senator Rubio. And do you think the administration's 
ongoing deliberations on what to do as Qaddafi closes in and 
basically seals the deal, is that strengthening our hand with 
China and Russia? Are they--do they feel pressure now to go 
along with this or do they--or are they sitting back and kind 
of saying, well the President said Qaddafi must go, but Qaddafi 
is not going anywhere and you guys don't have the guts to do 
anything about it? I mean does that strengthen our hand in the 
Security Council?
    Mr. Burns. No; I think what strengthened our hand and that 
of others in the Security Council is what the Arab League did 
and I think the Russians and Chinese take that seriously and I 
think they take seriously the, you know, very active effort 
that we are making in New York right now to produce a new 
resolution.
    Senator Rubio. What is the administration's message to 
Libyan dissidents and democracy activities that may be watching 
or reading about this tomorrow? What is our message to them? Is 
our message, hold on, we may have a Security Council resolution 
in a few days, just--well what is our message to them?
    Mr. Burns. Our message is that we support the realization 
of the same universal rights in Libya that we are seeing 
realized in Egypt and Tunisia and elsewhere in the region.
    Senator Rubio. And we support it by the issuance of 
forceful and strongly worded statements?
    Mr. Burns. No. We support it by pushing beyond statements 
for practical actions. We have taken some already, we are 
seeking more in New York and working with Arab partners. And 
that's----
    Senator Rubio. So unless it is the dissidents and the 
activists, the people that have the bravery to stand up to 
Muammar Qaddafi and then maybe thinking to standing up to 
people like the Iranian regime and in other places, our message 
to them is, you guys go ahead and do this stuff and if we can 
ever get the Russians or Chinese to come around, we may or may 
not join you?
    Mr. Burns. No; what the Libyan National Council, 
representatives of the opposition with whom we have met, have 
argued for is to work with the Arab League, with Arab States 
and work with the Security Council.
    Senator Rubio. The Arab League is saying do a no-fly--they 
are saying do something now.
    Mr. Burns. What the Arab----
    Senator Rubio. So are the French and British.
    Mr. Burns. What the Arab League said is that they want to 
Security Council to authorize that kind of a step and that is 
exactly why we are working actively----
    Senator Rubio. I know, but I think all of us want them to 
authorize it too, but they are not going to. Russia and China 
are not going to do this. They don't care. In fact they--I 
think they enjoy anything that destabilizes us because it 
strengthens their hand around the world.
    Mr. Burns. Yesh, I just don't share the assumption that we 
can't produce a new resolution. I think we can.
    Senator Rubio. So the bottom line, because I know my time 
is running out and--the bottom line is that this 
administration's strategy to Libya is the following. If we can 
get Russia and China--we think we have a real chance to get 
Russia and China to go along with strong action in Libya and we 
are going to continue to work on that and hopefully we can get 
that in place before Muammar Qaddafi massacres or continues to 
massacre people in an all out bloodbath?
    Mr. Burns. I think we can produce a new Security Council 
resolution.
    Senator Rubio. When? Today?
    Mr. Burns. I hope we can today, that is exactly what we are 
pushing for.
    Senator Rubio. And what will the resolution be? What do you 
think we can secure?
    Mr. Burns. What we are pushing for is to secure a 
resolution that includes a number of very specific measures to 
protect Libyan civilians that includes, but is not limited to a 
no-fly zone and we will see whether we can produce that, but 
that's what we are at----
    Senator Rubio. Do we have a timetable by when that needs to 
be produced? I mean do we have a--is there a point in time 
where we think, OK if we don't get a Security Council 
resolution by this point in time then we have got to move on to 
something else? Does such a thing exist?
    Mr. Burns. Our hope is to produce a vote on a new Security 
Council resolution along those lines as early as today. That is 
what we are pushing hard for.
    Senator Rubio. And if it fails is there a backup plan?
    Mr. Burns. I am not assuming that it is going to fail. I 
think we can produce a resolution.
    Senator Rubio. So we don't--but assuming it fails, because 
you know, let's say it does, because it is--just one member 
could block it, assuming it fails, what do we do then? Do we 
have a plan for that or we haven't had that----
    Mr. Burns. Well Senator, we have thought through lots of 
possibilities, but I just don't assume it is going to fail. I 
think we can produce one.
    Senator Rubio. So if it fails we don't have any idea what 
we will do next?
    Mr. Burns. We have lots of ideas about what we might do. I 
just don't assume that it is going to fail. I think it is 
possible to produce it.
    Senator Rubio. Is there any ideas you can share with us 
or----
    Mr. Burns. As I said, our focus is to try to produce the 
resolution that is what lots of people in the Arab world and 
the international community support right now.
    Senator Rubio. So there is not one idea you can tell me 
about that we will do if it fails?
    Mr. Burns. We are doing lots of things already that we will 
continue to do to step up the economic pressure, sanctions on--
--
    Senator Rubio. Not one idea? Not one you can tell me?
    Mr. Burns. That is one I just mentioned.
    Senator Rubio. OK.
    Mr. Burns. And I do that we can produce a Security Council 
resolution, which I think would provide the kind of platform we 
need to step up effective international pressure on Qaddafi.
    The Chairman. Senator Cardin.
    Senator Cardin. Secretary Burns, thank you very much for 
your leadership and service, appreciate it very much.
    The challenge we have in the Middle East is the fact that 
we deal with so many countries that we need their strategic 
relationship but they don't share our values. And we have to 
make choices. Their strategic relationships are important for 
our military, they are important for our intelligence 
community, they are important for many, many different reasons, 
including our war against extremists and terrorists. But there 
is one country in the Middle East where we do not have to make 
that choice and that country of course is Israel.
    And it is clear that as countries have gone through 
transition, there have been actions taken that could have an 
impact on Israel. You saw in Egypt the use of the Suez Canal by 
Iran and according to published reports that may have had a 
consequence to Israel's security. There have been concerns 
about weapons being made available to Hamas as a result of some 
of the upheavals in some of the Arab States. There is a 
question as to how Iran is operating within the region that 
could also have an impact on Israel.
    So my question to you is, Has the administration been in 
close contacts with our Israeli allies assessing what impact 
these changes are having on the security of Israel, our closest 
ally in the Middle East?
    Mr. Burns. Yes, Senator Cardin, we have certainly stayed in 
close touch, particularly with regard to Egypt, given the 
obvious security implications in Gaza and along the border. It 
was encouraging that early on the Egyptian military leadership 
and the Israelis worked out arrangements so that Egyptian 
military units could replace police units close to the Gaza 
border to help ensure security there.
    It was also quite encouraging that the Supreme Armed Forces 
Council in Egypt very early on, after the end of the Mubarak 
era, reaffirmed Egypt's commitment to the Egypt/Israel peace 
treaty.
    But to answer your question, yes, we are in close touch 
with the Israelis on all these issues.
    Senator Cardin. We saw that--I mean it is clear that our 
relationship with particularly the military in Egypt made it 
clear of the conditions that must be met for the United States 
to continue to be involved with Egypt from the point of view of 
aid. I am concerned whether that message is going to be 
continuously repeated.
    It seems to me that the United States plays a major role in 
the Middle East. We have foreign aid, military assistance, 
development aid and the list goes on and on and on. I think we 
have a right to expect accountability on the use of those 
funds, not just that they will respect the rights of its 
citizens, which to me is very important, but that it will join 
us in our fight against extremists and terrorists.
    Is that message being clearly delivered?
    Mr. Burns. Sir, this is with regard to Egypt or----
    Senator Cardin. Regards to all--any country in which we 
have a substantial--have a significant relationship which is 
going through a change.
    Mr. Burns. Sure, yes sir, I mean because we believe that we 
have shared concerns about violent extremists that aren't 
limited to relations with particular leaders or particular 
governments. And you know, whether it is Egypt or, you know, 
other partners in the region, we certainly put a high priority 
on those kind of concerns and those kind of goals and will 
continue to do that.
    Senator Cardin. Well, let me put it in the negative. I was 
trying to do it in the positive. If we find that Egypt or any 
country in the Middle East takes positions that are contrary to 
their international commitments as it relates to the peace 
process and to Israel, or they take steps that are counter to 
our objectives in our fight against terrorists, are we prepared 
to cut off our financial assistance to those countries?
    Mr. Burns. Well, we obviously have to weigh, in terms of 
our own interests, the nature of our relationships and our 
assistance relationships with any country. But I guess what I 
would emphasize with regard to Egypt is what we have seen 
before is a reaffirmation of Egypt's commitments to its 
international treaties, including the Egypt/Israel peace treaty 
and a reaffirmation of its commitment to work with us and lots 
of others against violent extremism, which is as much important 
an interest of Egypt as it is of the United States.
    Senator Cardin. Well Secretary Burns, you are giving a very 
diplomatic answer. But let me just tell you, I think there is 
concern here in Congress as to keeping a very close eye as to 
developments in countries in which U.S. taxpayers are being 
asked to provide help to make sure that there is respect for 
the human rights of its citizens, including dealing with gender 
equity issues and dealing with good governance and 
anticorruption efforts, but also what these countries are doing 
to fight extremists and terrorists and whether they are a 
constructive partner in the peace process that we are moving 
forward with in the Middle East. And we are going to be 
watching that closely and we hope that message will be very 
clear as to where we are on that issue.
    And I will mention one other point. You mentioned of course 
the United Nations and trying to engage the United Nations, 
which I think is important, I hope this--we can get 
international support for our policies.
    There is another international organization that has a role 
in the Middle East and that is the OSCE, it has a Mediterranean 
dimension in which Egypt and Jordan and Israel, Tunisia are all 
members. So it does offer us a platform that we could extend 
getting the international community involved in more of the 
institution-building where the United States has not always 
been as effective as an international organization can be.
    I hope you will take back the message that there is a good 
track record within OSCE. And we would ask some of the other 
countries, as they are going through transition, to look at 
becoming a partner within OSCE that could help them in 
developing the institutions they need to have open and fair and 
free elections, to deal with freedom of expression and the 
right of minority communities, et cetera, all which are 
critically important for stability in these emerging countries.
    Mr. Burns. Now, Senator Cardin, I agree with you 
absolutely. I think there is a lot in the experience of some 
OSCE member countries, particularly in Eastern Europe, in terms 
of their building a democratic societies and how they navigated 
complicated transitions that would be useful to people in the 
Middle East wrestling with some of those same questions. And to 
be honestly, they bring to that effort less of the baggage 
sometimes than the United States does.
    The only other comment I would make quickly back to your 
earlier question is that I truly do believe, as I said in my 
opening comments, that successful transitions, particularly in 
Egypt but also in Tunisia, are in many ways the best antidote 
to the narrative of violent extremists, whether it is al-Qaeda 
or any place else, because what it does, I think, is put a lie 
to the notion that the only way you can affect change in the 
Middle East is through violence and extremism.
    What it demonstrates is that through peaceful, 
nonideological, home-grown movements you can produce what I 
believe the vast majority of people in that region want. And so 
that is why I think we have such a deep stake in doing 
everything we can at least to help get those kind of 
transitions, to help Egyptians get their transition right.
    Senator Cardin. Well I agree with that. And again I thank 
you for your service and your leadership.
    The Chairman. Thank you.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman. Secretary Burns, 
welcome. You have a reputation, well deserved, of being one of 
the finest diplomats in the State Department. You certainly 
demonstrated that today under questions from both viewpoints.
    I would tend to identify myself more closely with the line 
of questioning you received from Senator Lugar and Senator 
Corker. Before I ask you or discuss this, I can't not say that 
today, if we were talking about humanitarian issues--clearly 
not the subject of this hearing, but I think we would be 
putting a lot more emphasis on what has been going on in Japan. 
We have a situation over there where we have seen entire towns 
obliterated, where tens of thousands of people are dead or 
missing and half a million people are living in shelters. The 
power grid has been damaged and the ability of the normal 
institutional systems to handle that has really been affected. 
They are an ally, they are a friend.
    We have done some good work with our military and in other 
areas, but I would hope we could get that up on the radar 
screen much higher in terms of what our government's ability to 
assist the Japanese can be. People tend to think this is a rich 
country, and therefore they can handle this. But, when your 
public services are designed on one level and you have these 
multiple calamities, we really should be discussing that.
    With respect to the subject of this hearing, I find your 
testimony to be optimistic, quite frankly. I have been on this 
committee now for 4\1/2\ years, there is a tendency when 
somebody is coming over talking about an administration 
position, we are talking about reform movements bringing 
greater peace, democracy, prosperity. These certainly are 
aspirations. But when you look at this region, I think you and 
I both have been in and out and different hats for many years, 
and we know that there is a lot more going on that are going on 
vary in scope and intensity from country to country. They 
involve sectarian factions, religious differences, and true 
extremist movements which we cannot ignore. I think Senator 
Corker had some good questions on that line that are bent on 
manipulating these sorts of movements that are otherwise well-
intentioned. And I don't think we should take our eyes off 
that.
    I remember when I was a journalist in Beirut, when the 
Marines were there in 1983. During one firefight a Marine 
turned around to me and said, ``never get involved in a five-
sided argument.'' This tends to repeat itself in our policies 
in this part of the world.
    So any approach that we take to a situation, even with some 
of the compelling circumstances in Libya, really needs to be 
taken carefully with the understanding that there are down 
sides, that these things are easily begun and very difficult to 
end and to adhere to the principles of international law.
    Could you describe the nature of our official diplomatic 
relations with the Government of Libya?
    Mr. Burns. Senator Webb, we have suspended the operations 
of our Embassy in Tripoli and their operation in Washington. So 
we no longer have diplomatic representatives accredited--I mean 
accredited to that government. We have allowed--we have made it 
possible for the Libyan National Council to open up a 
representative office in Washington. And as I mentioned before, 
at a whole variety of levels we have established contacts with 
them. So, the short answer is we have suspended the 
operations----
    Senator Webb. But we do have diplomatic relations?
    Mr. Burns. Yes, we haven't broken diplomatic relations----
    Senator Webb. So we have official diplomatic relations with 
the Qaddafi regime?
    Mr. Burns. Yes----
    Senator Webb [continuing]. In terms of international law?
    Mr. Burns. Yes. I'd have to--I don't want to misled you, 
Senator. Honestly I can try to get you an accurate answer on 
that, but we have suspended the operations of our Embassy 
there. We have not formally broken diplomatic relations.
    Senator Webb. Right. That was the answer that I received to 
the questions that we put forward last week that we actually 
still do have diplomatic relations. So, in terms of 
international law, it becomes rather awkward when we are 
supporting a movement yet to be fully defined and in my view in 
its attempt to overthrow a government which we still formally 
recognize.
    Mr. Burns. It is certainly a complicated proposition, but 
it is----
    Senator Webb. Oh, and that is--I don't mean to cut you off 
but, that goes really to Senator Lugar's point--whether it is a 
declaration of war or some other official signal that would 
indicate that this is not a government that we recognize, 
before we participate in any way in assisting an attempt to 
overthrow it. This may sound clinical, but I think it is very 
important in terms of how we address situations around the 
world.
    You mentioned the Libyan National Council and the 
discussions that have been ongoing and the fact that they might 
be opening up an office here. Can you tell us to what extent 
the members of this counsel actually represent the totality of 
the country and the ability to govern?
    Mr. Burns. Well, to the best of our knowledge the 30-some 
members of the council have been drawn from around the country, 
not just in the east but the west as well, a fairly broad 
tribal representation, because as you know Libya is a very 
tribal society. And so they have clearly made a serious effort 
to represent, you know, the vast majority of Libyans in the 
council.
    As I said before, you know, we have known a number of these 
officials before in their previous capacities. We have had 
extensive conversations with them since then. I do not want to 
pretend that that enables us to have a full picture of the 
entire membership of the council, but those with whom we have 
met have struck us as being positive and serious.
    Senator Webb. Can you identify other forces? Senator Corker 
mentioned people coming in from the outside, but other forces 
who are participating in the opposition that might have a 
different view of the way that the Libyan National Council is 
describing its aspirations?
    Mr. Burns. There certainly are other forces in Libya 
extremist groups including some who have fought in Afghanistan 
and elsewhere who we have been concerned about for a long time. 
It is certainly possible, as Senator Corker mentioned, that 
they will try to take advantage of the chaos in Libya right 
now. All I can tell you is we are being very, very careful in 
whom we deal with and we are very mindful of the dangers of 
extremist of one form or another trying to take advantage of 
this situation. So the risk is present, you are right.
    Senator Webb. Right. I would hope we take that same kind of 
care in terms of how we would approach any direct involvement 
in that country as well.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Thank you, Mr. 
Secretary.
    Let me just ask a couple questions. When we engaged in 
Kosovo what was the diplomatic status?
    Mr. Burns. In Kosovo I would have to check, I mean I think 
we still had relations at that time with Belgrade.
    The Chairman. And when we engaged did we have any 
declaration of war or authorization of use of force?
    Mr. Burns. I don't recall that there was a declaration of 
war.
    The Chairman. Right. And at this point in time, when we 
bombed Serbia, did we have diplomatic relations?
    Mr. Burns. I believe we did.
    The Chairman. OK. I think we have to be really thoughtful, 
and I know you are being, but I think all of us here need to be 
recognizing the precedents that exist. When Ronald Reagan sent 
cruise missiles into Qaddafi's palace and we killed his 
daughter, did we have any authorization from Congress?
    Mr. Burns. I don't recall that we did.
    The Chairman. We did not. We had a--potentially a finding 
but I am not even convinced there was a finding.
    I do think the questions raised by my good friend and 
ranking member and Senator Webb and others are valid, but I 
think it is critical to measure the standard as we have applied 
it and the exigencies as they face us at this particular 
moment.
    I don't think anyone is talking about the potential of 
intervention as I think the Arab community has talked about it, 
which would, in their mind, mean another occupation, troops 
coming in, people being on the ground. And I think that is 
their definition of intervention.
    But it would be completely inconsistent to call for a no-
fly zone and not understand that there could be planes flying 
and so forth. So again I think, you know, all of the questions 
raised are valid. I'm confident the administration is going to 
examine them very, very closely. I have always taken the 
position, I think Senator Lugar knows this, that it is better 
to proceed with the authorization and support of Congress if 
you have the time and if the opportunity provides for it. It is 
always better, because we represent the people and as a branch 
of government that has the constitutional power with respect to 
war or that kind of thing it is better. But life does not 
always present us with circumstances that afford us the 
opportunity to do that. And we haven't always--Republican and 
Democratic Presidents alike have had to make tough choices, 
faced with the moment.
    I appreciate your testimony here enormously today. Let me 
just ask you very, very quickly, the Bahraini situation, 
obviously this is a redline for the Saudis, too, so it puts us 
automatically into that relationship. And I wonder if you might 
just speak for a moment to the--to sort of how you see that 
playing out at this point in time. I know we have had 
conversations with everybody. Is there a next step that is 
clear to us, given the clearing of the square, Pearl Square, 
and the violent turn of the last 24 hours?
    Mr. Burns. Well Mr. Chairman, I mean the next step has to 
be, in our view, resumption of the national dialogue that the 
Crown Prince tried to start a couple of weeks ago. And that is 
what we are going to press very hard, not just on the 
government but on the opposition as well, to begin.
    I know that is a very complicated proposition amidst the 
recent violence and that is why we have spoken out, Secretary 
Clinton spoke out again yesterday quite clearly against the 
excessive use of force against demonstrators, because you have 
to create an atmosphere in which you can have that kind of 
serious political dialogue. There are legitimate concerns that 
have been raised by lots of Bahraini citizens, and until they 
are addressed it is going to be very difficult to see the kind 
of stable future for Bahrain, which I continue to believe is 
possible. And we will do everything we can, working with 
others, to encourage that.
    The Chairman. Well thank you, Mr. Secretary. It is fair to 
say that I remember the celebrations of the early 1990s when 
the Berlin Wall fell and the Soviet Union ceased to be the 
Soviet Union and the cold war effectively ended and everybody 
jumped up and down and it was this terrific moment. And 
obviously it has unleashed forces that were repressed for a 
long period of time in many of those countries, which we are 
still dealing with.
    It is interesting to see how they have been able to 
transition in Eastern Europe and in other parts of the world 
they have sort of stayed static. It is very interesting to look 
at the difference between Turkey and Egypt. They--in the 1950s, 
in the age of Pan-Arabism and so forth, there was really almost 
an equality of GDP, quality of per capita income and so forth 
and here is Turkey soaring in so many ways, economically, a 
major player globally, a democracy that is balancing itself and 
hanging in there and a great contributor to so many efforts and 
interests. And Egypt kind of just got stuck. And the people, 
the difference between the standards of living and the 
opportunities and the confidence of the country and so forth, 
it really shows, you know, enormous juxtaposition.
    So obviously this is a big moment and there is a lot that 
can transition out of it. And I am convinced that if we can do 
this well, and when I say ``we'' I don't mean us, I mean all of 
us together, it is going to have a profound impact on people's 
perception of the possibilities in a lot of other troubled 
spots in the world. That is what I see. When you define 
America's national interests this outcome can really make--you 
know, we have been fighting this War on Terror for--since, well 
it is 10 years now, and we have been doing things about terror 
for a long time before that. But this global engagement on it--
and this is part of it, this is absolutely a big part of it, 
with a new opportunity to redefine it in a very different way. 
If that isn't in our national interest I don't know what is.
    And I think as we look at Pakistan and Afghanistan, the 
amounts of money we are spending there, to not fight for this 
outcome would, in my judgment, complicate our lives even more 
significantly in those places. So I do see it in a larger 
strategic place and I think it is important for the 
administration, Mr. Secretary, to be defining that a little 
more. To be--I think the President needs to articulate that, 
why is this important to us. Because a lot of Americans don't 
have that automatic sense, I think even some of our very high 
elected--not elected, appointed officials who are involved in 
this debate right now have not necessarily either embraced or 
expressed that view. And I think that short changes the 
opportunities of this moment, that is just my perception. I 
don't know if you would agree or disagree?
    Mr. Burns. No, Mr. Chairman, I think there is an enormous 
strategic opportunity here for the United States and for the 
peoples of the Middle East, notwithstanding all the very real 
risks that exist. And there are huge pitfalls out there as 
well. But I think we have a very deep stake in helping, to the 
maximum extent we can, peoples and leaders in the region to get 
these transitions right.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Secretary Burns, I suspect that the Senators have utilized 
your appearance to have our own very civil debate today on the 
question of Libya, and likewise broader issues. I agree with 
the chairman's comments about the need for the President to 
attempt to articulate more clearly why not only Libya, but also 
the other countries in the Middle East, are especially 
important to us in terms of our national objectives or our 
national aspirations and ideals.
    I think, however, that it is probably clear to you as 
you've heard the testimony and responded to questions today 
from Senators that some Senators are indicating in a bipartisan 
way that they feel the President and the administration have 
not been forthcoming enough in meeting the problems of human 
rights in Libya.
    Perhaps the President feels some of this pressure. On the 
other hand, some of us, myself included, are saying that 
unfortunately we have been down this road before. The chairman 
has illustrated previous examples, under different 
administrations, where there was not the same call for a 
declaration of war. Certainly the probing we went through prior 
to the invasion of Iraq, and the resolutions that were offered, 
demonstraated much more of a desire to have an argument about 
these issues. Ultimately we went to war in Iraq, whether the 
reasons were understood to be clear at that time or not, or 
whether they turned out as Secretary Powell's testimony at the 
time indicated. But I am just saying that you have to 
understand, and I think you and the President do, that even as 
we are having this hearing today on Libya, which is very 
important, I believe, to our country and the world, the major 
debate that has been going on on the floor of the Senate ever 
since the beginning of this session has been with regard to the 
budget of our country. This has taken place through passage of 
continuing resolutions so the government doesn't shut down, as 
it will tomorrow if we do not vote affirmatively today, and 
threats that there will be no more continuing resolutions or 
that there will be no increase in the debt ceiling. And as 
people are pressed as to what this means, they say it means 
what we say, which is no more borrowing.
    This is the political situtation in our country that the 
rest of the world is looking at as we argue about the Libya 
situation today. I suppose I am saying, in terms of our own 
domestic politics, that we need to get sort of straight where 
we stand.
    Now, if we have a debate and decide to declare war on 
Libya, then Members of Congress who have voted that way have, I 
believe, an obligation to fulfill that role with regard to our 
Armed Forces, the State Department, and our diplomatic role. 
Otherwise we have a debating point in which Republicans can say 
that the President really doesn't have the force and the 
ability to handle these tough situations. On the Democratic 
side some may take the position of the chairman that we really 
ought to be there because of the humanitarian component, while 
others that we have heard this morning are somewhat more 
cautious about that. That is why this debate is necessary, I 
think, for our own domestic situation. And likewise, the 
opinion of the Congress lends credibility to the rest of the 
world as to the precise position of the United States with 
regard to this conflict.
    I am watching, as you are, resolutions being offered, and 
even votes in the House of Representatives, regarding the 
termination of foreign assistance and, among many, a desire 
really even to vote country by country on how we handle our 
foreign assistance going forward. Now that is a new business. 
And you can say, well it is after all one House of the Congress 
doing this and the other might reject any proposed legislation 
mandating such cuts. However, this is not a comfortable 
situation for those of you involved in foreign policy, as you 
proceed to Egypt in a delicate way, to know really what large 
numbers of Americans think about the level of funding we should 
be dedicating to foreign assistance programs.
    So, I appreciate very much your suffering through all of 
our questions and answers today. However, the reason for my 
pressing this issue is that we are going to have to have 
clarity on how we feel in the United States of America, apart 
from just the President or the Secretary of State or the 
Ambassador to the U.N., who are doing the very best they can, 
but the representatives of the American people more generally, 
regarding the way we should conduct ourselves in the Middle 
East in the midst of all this turmoil. Despite the fact that we 
have not really gotten into the weeds today as to what we are 
going to do in Bahrain, our strategic interests in that country 
are apparent given that the Fifth Fleet is there. The Saudis 
have moved 2,000 people into Bahrain, as they understand what 
their national interest seems to be. And we certainly are very 
supportive of our relations with Saudi Arabia, from Franklin 
Roosevelt to the present.
    But, do we have a new view with regard to how they handle 
human rights? Are we going to articulate really what happens 
with Yemen where you have a government that is authoritarian 
but appears to be tracking down al-Qaeda? These are questions 
down the trail, but not far down the trail, given the events in 
the Middle East.
    So I am hopeful that the President will, with your help, 
articulate what our national interests are. But likewise, we 
may in the Congress articulate where we stand with regard to 
the budget that may follow through on this or really with 
regard to the relationships we have discussed today concerning 
Libya.
    So, I appreciate your appearance and the chairman's calling 
of this very timely hearing before we head out on a recess, out 
visiting with our constituents, but I believe the 
administration is not really engaging during a time in which 
events are moving rapidly in Libya, Bahrain, and maybe 
elsewhere.
    And so I will not foster any more consternation with more 
questions, but I appreciate, as always, your own diplomatic 
efforts and most specifically the recent trip you took to Egypt 
at a time when we really did need someone on the ground there 
who had an understanding of the situation and has a vast array 
of diplomatic successes under his belt. I think your effort has 
brought some confidence with the Egyptian leaders in various 
types. I hope that you will help illuminate more, as you can, 
what you have found, who it is that we are going to be dealing 
with moving forward, what the broader prospects are, and how we 
can help foster democracy there.
    I suggest maybe it is a little premature to be having so 
many votes until you have established political parties and 
some dialogue between them and the institutions of civil 
society. That being said, I understand that this could be 
construed as gross interference even as we are attempting to 
help, as both parties have over the years with the 
International Republican Institute, the National Democratic 
Institute, and others.
    So thank you for coming.
    Mr. Burns. Thank you very much.
    The Chairman. Well, Senator Lugar, as always wise comments, 
thoughtful and important. I think the questions you raised 
obviously are ones that need to be answered. And I think your 
suggestions are very well taken. I am confident the 
administration does too. So thank you.
    Again, Secretary thanks so much for coming today. I think 
it has been helpful and it has helped to shed some light on the 
dynamics here as well. So I think that has been good.
    We stand adjourned.
    Mr. Burns. Thank you.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


Responses of Under Secretary William J. Burns to Questions Submitted by 

                        Senator Robert Menendez

    Question. In Bahrain, democratic protestors are calling on the 
United States to demand that King Hamad bin Isa al-Khalifa make 
immediate and real reforms. I recognize the value that the Bahrain 
monarchy has played as a U.S. ally in the region and a bulwark against 
Iranian influence, but the monarchy's inaction, its failure to address 
the needs of its people, is feeding Iran's influence in Bahrain and 
through the region--an outcome that cannot and does not serve Bahraini 
or Americans interests.

  <bullet> What options are on the table to support democratic reform 
        in Bahrain and other nations? How are we going to reform our 
        support through State and AID to reach out to small ``d'' 
        democrats seeking peaceful democratic change in their 
        countries?

    Answer. The administration recognizes the urgent need for political 
reform and further engagement with reform advocates in Bahrain. In 
Bahrain, civil society organizations and activists are often subject to 
government intimidation, censorship, and detention, to include 
teachers, human rights activists, journalists, bloggers, medical staff, 
and political activists. The U.S. Government is using all available and 
appropriate channels both in Manama and in Washington to engage local 
and international human rights groups, members of the opposition, 
religious figures, and the Government of Bahrain on political reform, a 
meaningful dialogue, and government transparency. We have called upon 
the Government of Bahrain to commit to real reform by releasing and 
accounting for those missing or detained, ceasing the attacks on 
hospitals and medical staff, and immediately halting acts of 
intimidation and harassment on civil society actors. In support of our 
commitment to reform and civil society, we have a range of programs 
that support civil society in Bahrain, including programming through 
the Bureau of Democracy Human Rights and Labor (DRL) and the Middle 
East Partnership Initiative (MEPI) designed to train women in 
nontraditional fields, prepare for political campaigns, gain and 
develop the skills needed to advocate for human rights for women, and 
foster entrepreneurship throughout the country.
                  united nations human rights council
    Question. The United States reengaged with the U.N. Human Rights 
Council with the idea that it would be easier to reform the body from 
within than it was from the outside. Nonetheless, the Council continues 
to be plagued by inaction and by the presence on the Council of some of 
the most notorious human rights abusers in the world--Cuba is a Vice 
President of the Council.
    I welcomed the unprecedented decision of the U.N. General Assembly 
to remove Libya from the Council, despite the fact that its initial 
election to the body was an abomination. The fact that Syria is seeking 
to replace Libya on the Council further defies logic.
    The Libya resolution that I authored which passed this body by 
unanimous consent on March 1 urges the U.S. Ambassador to the United 
Nations to advocate for improving Human Rights Council membership 
criteria to exclude gross and systematic violators of human rights.

  <bullet> What steps are you taking to prevent Syria's election to the 
        Council and to improve membership criteria to exclude gross and 
        systematic violators of human rights?

    Answer. As Secretary Clinton emphasized in Geneva recently, 
membership on the Council ``should be earned through respect for human 
rights. That is the standard laid out by the General Assembly. This 
Council's predecessor, the Human Rights Commission, lost its 
credibility in part because Libya was allowed to serve as its 
president. It should not take bloodshed for us to agree that such 
regimes have no place here.''
    While no U.N. body can expect to have only countries with perfect 
records on it, we are focused on keeping the most egregious and 
disruptive human rights abusers off the Council, as we did last year 
when Iran sought a seat. Countries that grossly and systematically 
violate human rights have no place on the Council. We succeeded in 
getting Iran to withdraw its candidacy last year and in suspending 
Libya's membership this winter, and we firmly oppose Syria's candidacy 
this year.
    In creating the Human Rights Council, all Member States committed 
to take ``into account the contribution of candidates to the promotion 
and protection of human rights.'' The United States considers the human 
rights record of each candidate for the Human Rights Council. While we 
do not as a matter of policy reveal our votes, the record of Syria 
speaks for itself.
    Syria's candidacy particularly concerns us. Syria's human rights 
record is deplorable. One can clearly see Syria's troubling approach to 
human rights in its current violent and deadly crackdown on peaceful 
protestors. The United States is deeply troubled by violence and 
civilian deaths at the hands of security forces. We are concerned by 
the Syrian Government's use of violence, intimidation, and arbitrary 
arrests to hinder the Syrian people's ability to freely exercise their 
rights. Syria's overall record makes it clear that Syria has no place 
on the U.N.'s only political body dedicated to the promotion and 
protection of human rights.

    Question. Please also comment on our efforts at the Council to 
establish a human rights monitor for Iran.

    Answer. The United States is proud to have joined other nations 
from around the world during the March 2011 session of the United 
Nations Human Rights Council (HRC) to establish a Special Rapporteur on 
Iran--something Secretary Clinton called for during her visit to the 
Council at the beginning of the session. Creation of this position was 
a signal achievement for the HRC, as it is the first country-specific 
Special Rapporteur mandate authorized since the HRC replaced the 
Commission on Human Rights in 2006.
    The new Special Rapporteur mandate marks a significant step forward 
for the people of Iran because their rights will now be supported 
through international scrutiny by a country-specific U.N. mechanism. 
Thanks to the action taken by the HRC in establishing this position, 
the people of Iran will have a voice devoted to their human rights 
within the international community despite every attempt by the Iranian 
government to silence opposition and dissent.
                                 ______
                                 

 Response of Under Secretary William J. Burns to Question Submitted by 
                         Senator Johnny Isakson

    Question. If Muammar Qadhafi is successful at violently 
suppressing, through military and other tactics, the Libyan opposition 
that is seeking a democratic transition in Libya, what implications 
would that have for democratic transitions across the Middle East and 
North African region? And more specifically do you think that violent 
suppressions would spread across the region if Qadhafi is successful at 
suppressing the Libyan opposition? And what would the U.S. policy 
response look like if Qadhafi is able to suppress the opposition and 
violence spreads?

    Answer. A victorious Qadhafi would emerge unbowed and vengeful, 
sending a signal to other governments in the region that brutal 
repression and the use of force against civilians can be used to 
successfully resist popular calls for democratic reform. The regime 
would likely seek to retaliate by destabilizing the region and sowing 
conflict through military and economic policies, propaganda, and, 
possibly, support for terrorism. The fragile transitions to democracy 
in Tunisia and Egypt, which have close economic and social ties with 
Libya, would be especially vulnerable.
    Inside of Libya, the Qadhafi regime would also likely effect 
immediate, wide-scale, and bloody retaliation in the areas considered 
sympathetic to the opposition, especially in eastern Libya and the 
Berber regions in the West. We have already received credible accounts 
that thousands of young men between the ages of 18 and 35 in areas 
recaptured by the regime have been selectively abducted, held in remote 
desert camps, and tortured.
    The United States has embraced the goal of removing Qadhafi from 
power and will pursue it in close coordination with our international 
partners through nonmilitary means, including sanctions and 
accountability measures. We have already imposed strong unilateral 
sanctions, freezing over $33 billion in regime assets; we are also 
coordinating with our European partners and the U.N. on applying 
additional and rigid sanctions. By freezing assets, restricting travel, 
and threatening prosecution at the International Criminal Court, we are 
pressuring and isolating the Qadhafi regime and ensuring that its 
members are held accountable for their actions. We are constantly 
assessing our policies as this very fluid situation develops, and 
future options may include increased diplomatic, economic, and military 
pressure on the Qadhafi regime, efforts to mitigate reprisals and 
killings within Libya, and additional humanitarian aid to help the 
victims of Qadhafi's violence.

                                  <all>

</pre></body></html>
